la
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
C.A. No. 19-2455
E. THOMAS SCARBOROUGH, III, Appellant
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY; SUPREME COURT
OF PENNSYLVANIA
(D.C. No. 5-18-cv-02436)
SUR PETITION FOR REHEARING
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS
and NYGAARD, * Circuit Judges
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the

- 1-

circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition
for rehearing by the panel and the Court en band, is
denied.

* Judge Nygaard’s vote is limited to panel rehearing
only.
BY THE COURT,
s/L. Felipe Restreno
Circuit Judge

Date: May 14, 2020
Tmm/cc: E. Thomas Scarborough, III
Martha Gale, Esq.

-2-

2a
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 19-2455
E. THOMAS SCARBOROUGH, III, Appellant
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY; SUPREME COURT
OF PENNSYLVANIA
On Appeal from the United States District Court for
the Eastern District of Pennsylvania (D.C. Civil
Action No. 5-18-cv-02436) District Judge: Honorable
Jeffrey L. Schmehl
Submitted Pursuant to Third Circuit LAR 34.1(a)
February 18, 2020
Before: SHWARTZ, RESTREPO and NYGAARD,
Circuit Judges
(Opinion filed: February 20, 2020)
OPINION*
PER CURIAM
* This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

-3-

Pro se appellant E. Thomas Scarborough, III
appeals the District Court’s order dismissing his
complaint. For the reasons set forth below, we will
affirm the District Court’s judgment.
According to his operative amended complaint,
Scarborough and his ex-wife have been litigating a
child-custody matter in the Court of Common Pleas
of Northampton County for more than a decade.
Scarborough alleged that the Court of Common
Pleas violated his due-process rights in a variety of
ways, including by improperly deferring to
recommendations from a master, granting primary
physical custody to Scarborough’s ex-wife without
holding a trial, ruling that Scarborough had agreed
to a custody schedule when he had not actually
agreed, and failing to fully consider his submissions.
He also claimed that the Pennsylvania Supreme
Court violated his due-process rights by dismissing
his appeals. Scarborough asserted these claims in
the District Court under 42 U.S.C. § 1983.
The defendants filed a motion to dismiss, which
the District Court granted. The Court concluded
that the two defendants—the Court of Common
Pleas and the Pennsylvania Supreme Court—were
immune from suit under the Eleventh Amendment.
Scarborough filed a timely notice of appeal. In this
Court, he has also filed a document requesting
“mandamus relief for discovery and summary
judgment,” in which he asks us to “investigate the
internal operations of the Commonwealth Court.”
We have jurisdiction under 28 U.S.C. § 1291. “We
review de novo the legal grounds underpinning a
claim of.. . sovereign immunity.” Karns v.
Shanahan. 879 F.3d 504, 512 (3d Cir. 2018).

-4-

}

We agree with the District Court’s analysis. The
Supreme Court of Pennsylvania and the
Northampton County Court of Common Pleas are
entitled to immunity under the Eleventh
Amendment. See Benn v. First Judicial Dist. of Pa..
426 F.3d 233, 241 (3d Cir. 2005); see also Puerto Rico
Aqueduct & Sewer Auth. v. Metcalf & Eddy. Inc..
506 U.S. 139, 146 (1993) (explaining that “suits
against the States and their agencies ... are barred
regardless of the relief sought”). While states can
waive their Eleventh Amendment immunity, see
Koslow v. Pennsylvania. 302 F.3d 161, 168 (3d Cir.
2002), Pennsylvania has not done so, see Lavia v. Pa.
Den’t ofCorr.. 224 F.3d 190, 195 (3d Cir. 2000) (“The
Pennsylvania legislature has, by statute, expressly
declined to waive its Eleventh Amendment
immunity.”). Moreover, although Congress can
abrogate a state’s sovereign immunity, it did not do
so through the enactment of § 1983, the federal law
under which Scarborough proceeds. See Quern v.
Jordan. 440 U.S. 332, 345 (1979). 1 And contrary to
Scarborough’s argument, he cannot avoid this bar by
asserting a freestanding claim under the Fourteenth
Amendment. See Capogrosso v. Supreme Ct. of N.J.,
588 F.3d 180, 185 (3d Cir. 2009); see also Magana v.
N. Mar. I., 107 F.3d 1436, 1442-43 (9th Cir. 1997)
(Aldisert, J.). Because of this bar, we are also
satisfied that any amendment to the complaint
would have been futile. See Grayson v. Mayview
State Hosp., 293 F.3d 103, 106, 108 (3d Cir 2002).
Accordingly, we will affirm the District Court’s
judgment. Scarborough’s motion
“for mandamus relief for discovery and summary
judgment” is denied.

-5-

1 In his brief on appeal, Scarborough claims that
Title II of the Americans with Disabilities Act (ADA)
abrogates state immunity. This is true in some
circumstances. See Bowers v. NCAA, 475 F.3d 524,
556 (3d Cir. 2007). However, although he mentioned
that he has ADHD and complained about his ability
to present his case in state court, Scarborough did
not plead an ADA claim in his counseled complaint
in the District Court, and he cannot raise a new
claim for the first time on appeal. See Doe v. Mercy
Catholic Med. Ctr., 850 F.3d 545, 558 (3d Cir. 2017).
We also note that, although the outlines of this
putative claim are not at all clear, if Scarborough
were to challenge a final order issued by the Court of
Common Pleas denying an accommodation, his claim
would likely be barred by the Rooker-Feldman
doctrine. See Great W. Mining & Mineral Co. v. Fox
Rothschild LLP, 615 F.3d 159, 166 (3d Cir. 2010);
Sykes v. Cook Cty. Circuit Court Probate Div., 837
F.3d 736, 743 (7th Cir. 2016) (“Rooker-Feldman will
not always bar a litigant from bringing claims
against a state court for denial of reasonable
But when as in this case the
accommodations
injury is executed through a court order, there is no
conceivable way to redress the wrong without
overturning the order of a state court. RookerFeldman does not permit such an outcome.”); see
generally Malhan v. Sec’y U.S. Dep’t of State, 938
F.3d 453, 460 (3d Cir. 2019) (discussing when an
order is final in this context).

-6-

UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
September 12, 2019
ACO-115
No. 19-2455
E. THOMAS SCARBOROUGH, III, Appellant
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY; SUPREME COURT
OF PENNSYLVANIA
(E.D. Pa. No. 5-18-cv-02436)
Present: MCKEE and SHWARTZ, Circuit Judges
1. Motion by Appellees to be Excused from Filing a
Brief pursuant to LAR 31.2;
2. Response by Appellant in Opposition to Appellees’
Motion to be Excused from filing a Brief;
3. Motion to Strike Appellees’ Motion to be Excused
from Filing a Brief and Declare the Memorandum of
Law in support of motion as a “Reply Brief’.

Respectfully,
Clerk/tmm

-7-

ORDER
The foregoing motion by Appellees to be excused
from filing a brief pursuant to LAR 31.2 is granted
and the motion to strike Appellees’ motion to be
excused from filing a brief and declare the
memorandum of law in support of the motion as a
“reply brief’ is denied.
By the Court,
s/Pattv Shwartz
Circuit Judge
Dated: November 1, 2019
Tmm/cc: E. Thomas Scarborough, III
Martha Gale, Esq.

-8-

3aIN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
E. THOMAS SCARBOROUGH, III,
Plaintiff,
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, et al.
Defendants.
CIVIL ACTION NO. 18-2436
ORDER
AND NOW, this 14th day of June, 2019, upon
review of Defendants’ Motion to
Dismiss Plaintiffs Amended Complaint (Docket No.
5), and Plaintiffs response, and
after oral argument being held, it is hereby
ORDERED as follows:
1. Defendants’ Motion to Dismiss is GRANTED;
2. Plaintiffs Amended Complaint is DISMISSED
with prejudice; and
3. The Clerk shall close this case.
BY THE COURT:
/s/ Jeffrey L. Schmehl
Jeffrey L. Schmehl, J.

-9-

IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF PENNSYLVANIA
E. THOMAS SCARBOROUGH, III,
Plaintiff,
v.
COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, et al.
Defendants.
CIVIL ACTION NO. 18-2436
MEMORANDUM OPINION
June 14, 2019

Schmehl, J. /s/ JLS
I. INTRODUCTION

Plaintiffs Amended Complaint in this matter
sets forth a cause of action pursuant to 42 U.S.C. §
1983 for alleged violations of his constitutional
rights in connection with his state court child
custody case. Defendants, the Court of Common
Pleas of Northampton County and the Supreme
Court of Pennsylvania, now move to dismiss
Plaintiffs Amended Complaint. For the reasons that
follow, I will grant Defendants’ Motion to Dismiss,
and dismiss Plaintiffs Amended Complaint with
prejudice.
II. FACTS

- 10-

Plaintiffs allegations primarily consist of
complaints regarding the handling of his child
custody case and the orders that were issued by the
Northampton County Court of Common Pleas from
2005 until February of 2016 in his custody matter.
Plaintiff claims that venue was improper, that he
was deprived of a trial before a judge and that the
Court erred in awarding primary physical custody to
the mother of his child.
Plaintiff also avers that the Pennsylvania
Supreme Court wrongly dismissed and/or quashed
his appeals and refused his attempts to obtain the
extraordinary remedy of the exercise of King's Bench
power in connection with his child custody case, and
that that Court "has failed to assert proper control
and authority over the Common Pleas Court of
Northampton County and to protect Plaintiffs due
process rights." (Cmplt. UK 65 and 66)
III. LEGAL STANDARD
A motion to dismiss filed under Federal Rule of
Civil Procedure 12(b)(1) challenges a court’s subjectmatter jurisdiction over the plaintiffs claims. Fed. R.
Civ. P. 12(b)(1). “At issue in a Rule 12(b)(1) motion is
the court’s very power to hear the case.” Judkins v.
HT Window Fashions Corp., 514 F.Supp.2d 753, 759
(W.D. Pa. 2007), quoting Moi’tensen v. First Federal
Savings & Loan Assoc., 549 F.2d 884, 891 (3d Cir.
1977). As the party asserting that jurisdiction exists,
Plaintiff bears the burden of showing that his or her
claims are properly before the court. Development
Finance Corp. v. Alpha Housing & Health Care, 54
F.3d 156, 158 (3d Cir. 1995).
In reviewing a Rule 12(b) (1) motion, a court
must determine whether the attack on its

- 11 -

jurisdiction is a facial attack or a factual attack. A
facial attack challenges the sufficiency of the
plaintiffs pleadings on jurisdictional grounds.
Petruska v. Gannon University, 462 F:3d 294, 302,
n. 3 (3d Cir.2006). When considering a facial attack,
a court must accept the allegations contained in the
plaintiffs complaint as true. Id. A factual attack on
the court's jurisdiction must be treated differently.
Id. When considering a factual attack, the court does
not attach a presumption of truthfulness to the
plaintiffs allegations, and the existence of disputed
material facts does not preclude the court from
deciding for itself whether jurisdiction over the
plaintiffs claims can be properly exercised.
Mortensen, 549 F.2d at 891.
IV. DISCUSSION
In the instant matter, Defendants argue that
they are immune from Plaintiff s claims due to the
immunity provided to states under the Eleventh
Amendment. All states and state entities are
entitled to immunity under the Eleventh
Amendment. Lombardo v. Pennsylvania Dept, of
Public Welfare, 540 F.3d 190, 194-95 (3d Cir. 2008).
However, there are two ways that a state may lose
this immunity: Congress can explicitly abrogate
it in a particular statute, or a state can waive it with
regard to a particular statute. See Atascadero State
Hosp. v. Scanlon, 473 U.S. 234, 238 (1985) (“[I]f a
State waives its immunity and consents to suit in
federal court, the Eleventh Amendment does not bar
the action.”); Fitzpatrick v. Bitzer, 427 U.S. 445, 456
(1976) (“Congress may, in determining what is
‘appropriate legislation’ for the purpose of enforcing
the provisions of the Fourteenth Amendment,

- 12 -

provide for private suits against States or state
officials which are constitutionally impermissible in
other contexts.”).
Defendants, the Court of Common Pleas of
Northampton County and the Supreme Court of
Pennsylvania, are both courts of the unified judicial
system pursuant to 42 Pa.C.S. §301(1) and (4).
Further, the term “Commonwealth government”
includes “the courts and other officers or agencies of
the unified judicial system” and “court” includes “any
one or more of the judges of the court. . .” 42 Pa. C.S.
§ 102, Callahan v. City of Philadelphia, 207 F.3d
668, 672 (3d Cir. 2000). Accordingly, Defendants are
state entities that are entitled to immunity under
the Eleventh Amendment, unless Pennsylvania has
waived immunity or Congress has explicitly
abrogated immunity in the statute at issue in this
matter.
Plaintiff does not argue that Pennsylvania has
waived its immunity. Rather, Plaintiff attempts to
circumvent Defendants’ immunity by arguing that
the Eleventh Amendment does not grant immunity
for due process claims under the Fourteenth
Amendment. This argument would have merit only
if it can be shown that Congress eliminated Eleventh
Amendment immunity when it passed the statute
under which Plaintiff brings this matter. Therefore,
I must determine which statute is at issue before I
address whether Congress has in fact abrogated
Defendants’ immunity in this instance.
Despite his attempts to label it differently, it is
clear that Plaintiff is bringing a claim pursuant to
section 1983 for alleged violations of his civil rights.
The caption of the Amended Complaint clearly
states: “Complaint for Violation of Civil Rights (42

- 13 -

U.S.C. Section 1983.) Further, the Amended
Complaint contains a lone cause of action described
as “Violation of Civil Rights - 42 U.S.C. Section
1983” Am. Compl., ECF numbered p. 3. The
Amended Complaint does mention Plaintiffs due
process rights several times, but the pleading plainly
sets forth a cause of action under section 1983 for
alleged constitutional due process violations. The
required method of bringing a federal action against
Defendants for alleged violation of Plaintiffs due
process rights under the Fourteenth Amendment is
pursuant to section 1983. l
His attempts to
distinguish the instant action from a section 1983
action are unsuccessful, as all actions for alleged due
process violations are brought under section 1983.
Congress did not abrogate the Eleventh Amendment
when it passed § 1983, Machon v. Pennsylvania
Dep't of Pub. Welfare, 847 F. Supp. 2d 734, 743-44
(E.D. Pa. 2012); Quern v. Jordan, 440 U.S. 332, 345
(1970), and no court has carved out an exception to
this rule for due process claims under the
Fourteenth Amendment. See Burns v. Alexander,
776 F.Supp.2d 57 (W.D. Pa. Mar. 4, 2011) (finding
1 The United States Supreme Court has repeatedly
held that the purpose of section 1983 is to “create^ a
species of tort liability in favor of persons who are
deprived of rights, privileges or immunities secured
to them by the Constitution.” Memphis Community
School District v. Stachura, 477 U.S. 299, 305-306
(1986).

- 14-

that § 1983 does not contain language evincing a
legislative intent to subject the States to suit for
money damages and has not therefore been
construed as an abrogation of the States’ Eleventh
Amendment Immunity in a case where Plaintiff
presented claims under the Due Process Clause of
the Fourteenth Amendment). Accordingly,
Defendants’ immunity in this case is clear under
present law.
The Eleventh Amendment clearly bars § 1983
suits against states and state officials. Dill v. Com. of
Pa., 3 F. Supp. 2d 583, 587 (E.D. Pa. 1998); Jones v.
Com. of Pa., 2000 WL 15073 (E.D. Pa. 2000) (stating
that “[i]t is firmly established . . . that the Eleventh
Amendment immunizes a state from claims under §
1983 . ..”). Plaintiffs attempts to distinguish the
cases cited by Defendants are unavailing, and it is
telling that Plaintiff has failed to cite to a single case
holding that due process claims under the
Fourteenth Amendment are exempt from Eleventh
Amendment immunity. All claims brought under
section 1983 are subject to Eleventh Amendment
immunity; there is no exception for due process
claims under the Fourteenth Amendment.
Accordingly, Defendants are entitled to sovereign
immunity and cannot be sued by Plaintiff in this
matter.
V. CONCLUSION
For the foregoing reasons, the Court will grant
Defendants’ motion to dismiss and dismiss Plaintiffs
Amended Complaint with prejudice.

- 15-

4a
IN THE SUPREME COURT OF
PENNSYLVANIA MIDDLE DISTRICT
E. THOMAS SCARBOROUGH, III,
Petitioner
v.
NORTHAMPTON COUNTY COURT OF COMMON
PLEAS,
Respondent
No. 126 MM 2018
ORDER
PER CURIAM
AND NOW, this 27th day of September, 2018,
the Application for Leave to File Original Process
and the Application to File under Seal are
GRANTED, and the Application for Extraordinary
Relief is DENIED.

- 16-

5a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
E. THOMAS SCARBOROUGH III
Plaintiff,
v.

CASE NO.:

COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY
and
SUPREME COURT OF PENNSYLVANIA
Defendants.
AMENDED COMPLAINT FOR VIOLATION OF
CIVIL RIGHTS (42 U.S.C. Section 1983)
JURY TRIAL DEMANDED
Plaintiff alleges the following:
JURISDICTION AND VENUE
1. This Court has jurisdiction over this action
pursuant to Title 28 U.S.C. §§1331 and 1343 in that
the controversy arises under the United States
Constitution and under 42 U.S.C. §1983.
2. The acts and omissions giving rise to Plaintiffs
claims primarily occurred in Easton, Pennsylvania
and, therefore, the appropriate venue for this action
is the United States District Court for the Eastern
District of Pennsylvania.
IDENTIFICATION OF PARTIES

- 17 -

3. Plaintiff, E. Thomas Scarborough, III, is a natural
person currently residing in Bucks County,
Pennsylvania.
4. Defendant, Court of Common Pleas of
Northampton Cpunty, is part of the Pennsylvania
Judicial System and is organized and operating
under the Constitution and Laws of the
Commonwealth of Pennsylvania.
5. Defendant, Supreme Court of Pennsylvania, is
part of the Pennsylvania Judicial System, is
organized and operating under the Constitution an
Laws of the Commonwealth of Pennsylvania, and
has the authority over the Court of Common Pleas of
Northampton County.
STATEMENT OF FACTS
6. Plaintiff married Christy Scarborough on
December 31, 2003.
7. Plaintiff and Christy Scarborough had a child,
S.S., who was born December 27, 2004.
8. Approximately one month prior to the birth of
S.S., Christy Scarborough, moved from her residence
with Plaintiff in Bucks County, Pennsylvania, to
Northampton County, Pennsylvania.
9. Plaintiff filed a Complaint for Divorce and
Custody in the Court of Common Pleas of Bucks
County, Pennsylvania.
10. In 2007, a Decree of Divorce was entered by the
Court of Common Pleas of Bucks County,
Pennsylvania.
11. The litigation of the custody of S.S. took place in
the Court of Common Pleas of Northampton County.
12. The litigation of the custody of S.S. has taken
years.

- 18-

13. At all relevant timeshere, Plaintiff resided, and
continues to reside, in Bucks County.
14. Plaintiff filed a Complaint for Divorce and
Custody in the Court of Common Pleas of Bucks
County, Pennsylvania.
15. In 2007, a Decree of Divorce was entered by the
Court of Common Pleas of Bucks County,
Pennsylvania.
16. Since 2005, the litigation of the custody of S.S.
took place in the Court of Common Pleas of
Northampton County.
17. In June, 2005, approximately six months after
the birth of S.S., Plaintiff and Christy Scarborough
agree to proceed with a custody evaluation by Dr.
Ronald Esteve.
18. Plaintiff paid for and initiated his participation
with the custody evaluation with Dr. Esteve.
19. Christy Scarborough canceled her appointment
with Dr. Esteve and has failed and/or refused to
participate in the custody evaluation with Dr.
Esteve.
20. To date, the custody evaluation by Dr. Ronald
Esteve has never been completed.
21. In September, 2005, the parties attended a
custody conference with master Hogan. At the
conference, both Parties requested a custody
evaluation, including psycological evaluations.
Despite both Parties requesting the custody
evaluation, the Master denied the requests for a
custody evaluation.
22. On November 16, 2005, Court of Common Pleas
of Northampton County entered an Order granting
Christy Scarborough primary physical custody of
S.S. and Plaintiff partial physical custody with
limited visitation/parenting time with S.S.

- 19 -

23. Plaintiff never agreed that Christy Scarborough
would have primary physical custody of S.S.
24. For the November 16, 2005, Order, the Court of
Common Pleas of Northampton County claimed
Plaintiff, at the custody conference, agreed to
granting Christy Scarborough primary physical
custody of S.S. and Plaintiff having partial physical
custody with the limited visitation/parenting time
schedule. However, Plaintiff claims he did not
consent to these terms. There is no record of the
custody conference and no proof that the Plaintiff
agreed to these terms.
25. The Court of Common Pleas of Northampton
County Order of November 16, 2005, was entered
without the consent of Plaintiff.
26. The Court of Common Pleas of Northampton
County Order of November 16, 2005, was entered
without a trial or hearing of any kind.
27. The Court of Common Pleas of Northampton
County Order of November 16, 2005, was entered
without the completion of any custody evaluation.
28. The Court of Common Pleas of Northampton
County Order of November 16, 2005, is invalid
because defendant did not consent to Christy
Scarborough having primary physical custody, it was
entered by a Master who did not have the authority
to grant primary physical custody to Christy
Scarborough, and it was the result of fraud (namely,
a false claim that Plaintiff consented to the Order).
29. Despite the invalidity of the Court of Common
Pleas of Northampton County Order of November
16, 2005, the basic terms of the order (specifically,
Christy Scarborough being granted primary physical
custody of S.S.), have never been modified or revised
by the Court.

-20-

30. Even though Plaintiff and Christy Scarborough
had agreed to Dr. Esteve complete a custody
evaluation, the Court of Common Pleas of
Northampton County failed to order Christy
Scarborough to participate in the cutody evaluation.
31. In February, 2006, Plaintiff and Christy
Scarborough attended a custody conference with
Master Murray. At said conference, Christy
Scarborough, for the first time, objected to a custody
evaluation by Dr. Esteve, claiming Dr. Esteve had a
conflict of interest by falsely alleging he had
previously treated Plaintiff and/or Christy
Scarborough.
32. Later, it was determined that Dr. Esteve had
never treated Plaintiff or Christy Scarborough and
there was no conflict of interest.
33. On September 22, 2006, the Court of Common
Pleas of Northampton County entered an Order for
Dr. Kinney to complete a custody evaluation.
34. Plaintiff objected to having Dr. Kinney complete
a custody evaluation and requested that Dr. Esteve
complete the custody evaluation.
35. Dr. Kinney never completed a full custody
evaluation.
36. However, Dr. Kinney performed psychological
testing on Plaintiff and Christy Scarborough. The
raw data from the testing confirmed Plaintiffs
concerns regarding Christy Scarborough’s mental
health and stability.
37. Later, Dr. Kinney was disciplined and/or
sanctioned for his unethical behavior in another case
and he was no longer qualified to complete a custody
evaluation.

-21-

38. on April 4, 2008, the Court of Common Pleas of
Northampton County appointed Dr. Nastasee to
perform a custody evaluation.
39. Dr. Nastasee declined the appointment as a
custody evaluator in this case.
40. Thereafter, Plaintiff and Christy Scarborough
again agreed that Dr. Esteve would complete a
custody evaluation.
41. Again, Christy Scarborough breached the Parties
agreement to have Dr. Esteve perform a custody
evaluation and she refused and/or failed to
participate in a custody evaluation with Dr. Esteve.
42. From April, 2008, until February, 2016, the
Court of Common Pleas of Northampton County
dealt with petitions for Contempt against Christy
Scarborough and Petitions to modify custody.
Generally, the petitions resulted in Christy
Scarborough being found in contempt and minor
changes in Plaintiffs partial
custody/visitation/parenting time schedule. However,
no significant modifications were made and Christy
Scarborough continued to have primary physical
custody of S.S.
43. Importantly, despite numerous requests by
Plaintiff to have the custody evaluation completed,
the order granting Christy Scarborough primary
physical custody, and for a custody trial, the Court of
Common Pleas of Northampton County delayed any
meaningful trial for the custody of S.S.
44. In February, 2016, the Court of Common Pleas of
Northampton County held a custody trial.
45. The said custody trial was conducted without a
full custody evaluation because Christy Scarborough
refused and/or failed to participate in the custody
evaluation with Dr. Esteve and the Court of

-22-

Common Pleas of Northampton County failed to
require Christy Scarborough to participate in the
custody evaluation with Dr. Esteve.
46. Any opinions offered by any custody experts
were not beneficial to the Court due to the fact that
too much time passed between the limited/partial
examinations and the custody trial.
47. The Court of Common Pleas of Northampton
County did note that Dr. Gordon testified that he
reviewed the raw data from the psychological testing
and he belived that Christy Scarborough was
coached by her attorney so she would “respond
positively to the information in the MMPI testing"
and “some of Christy Scarborough’s testing data
revealed that she had significant elevation in a scale
called psychopathic deviant."
48. The Court of Common Pleas of Northampton
County ignored the evidence that Christy
Scarborough “had significant elevation in a scale
called psychopathic deviant" or that she was coached
by her attorney.
49. Ultimately, the Court of Common pleas of
Northampton County entered an Order on june 9,
2016, that essentially maintained the prior Orders
by granting primary physical custody of S.S. to
Christy Scarborough and granting partial physical
custody of S.S. to Plaintiff.
50. Until February 2016, the Court did not have a
custody trial. This action went from early 2005, until
2016, without having a custody trial.
51. The Court of Common Pleas of Northampton
County failed to act correctly by allowing nine years
to pass without a custody trial.
52. By allowing a nine year delay and by not
requiring Christy Scarborough to participate in the

- 23 -

custody evaluation with Dr. Esteve, the Court did
not have a current and valid custody evaluation for
its decision articulated in the June 9, 2016, Order.
53. The Court of Common pleas of Northampton
County has failed to even review all the pleadings
and documents filed by Plaintiff. Specifically, the
President Judge stated, “I have no idea what
[Plaintiffs] petition for recusal is all about", “Well, I
don’t know that anyone is going to want to read it“,
and “I don’t want to know about the background
unless the background has to do with me
[background] doesn’t matter to me at all."
54. At one point, the Court of Common Pleas of
Northampton County appointed Dr. Lane to perform
a Brief Focused Evaluation of Christy Scarborough;
however, the Court did not give Dr. lane any focus,
so it was impossible for Dr. Lane to perform a Brief
Focused Evaluation of Christy Scarborough.
55. Moreover, the Court of Common Pleas of
Northampton County prohibited Dr. lane from
having an communication with Plaintiff, which made
it impossible for a complete and accurate evaluation
to be completed.
56. The Judges of the Court of Common Pleas of
Northampton County have not given adequate and
serious consideration to Plaintiffs pleadings and
claims; instead the Court of Common Pleas of
Northampton County simply dismisses Plaintiff by
characterizing Plaintiff in pejorative terms, such as
calling Plaintiff a “serial pro se litigant".
57. Plaintiff has ADHD, which is a protected
disability, and the Court of Common Pleas of
Northampton County failed to adequate
accomodations and time for Plaintiff to present his
case at trial. The existence of Plaintiffs ADHD is

-24-

another important reason for the Court to read all of
Plaintiffs pleadings and to consider the background
of this matter.
58. On October 28, 2016, the Court of Common Pleas
of Northampton County entered an Order for S.S. to
engage in counseling; however, the Court did not
even consider Plaintiff s choice of counselors.
59. The Court of Common Pleas of Northampton
County has concluded, at various times, that Christy
Scarborough is in contempt for violating Court
Orders, such as her violation of Plaintiffs rights of
joint legal custody, acting in ways that alienate the
child from Plaintiff, and violating Plaintiff s rights of
partial physical custody.
60. The Common Pleas Court of Northampton
County routinely denies Motions and Petitions filed
by Plaintiff in which he seeks to assert his due
process rights under the U.S. Constitutionin the
custody action involving his daughter.
61. The Appellate Courts have dismissed or quashed
all appeals filed by Plaintiff in which he seeks assert
his due process rights under the U.S. Constitution in
the custody action involving his daughter.
62. Despite several requests, through appeal and
requesting a King’s Bench/excercise of extraordinary
power, the Pennsylvania Supreme Court has failed
to assert proper control and authority over the
Common Pleas Court of Northampton County and to
protect Plaintiff s due process rights.
CAUSE OF ACTION
VIOLATION OF CIVIL RIGHTS-42 U.S.C. §1983
63. According to the U.S. Supreme Court, parental
rights are protected by the U.S. Constitution. In

- 25 -

Troxel v. Granville. 530 U.S. 57 (200), Justice Souter
noted that the Supreme Court has long recognized
that a parent’s interests in the nuture, upbringing,
companionship, care, and custody are generally
protected by the Due Process Clause of the 14th
amendment.
64. Throughout the course of the custody litigation,
Plaintiffs due process rights protected by the U.S.
Constitution were violated by the Common Pleas
Court of Northampton County by its acts and
omissions which include, but are not limited to, the
following:
a. The Court of Common Pleas of Northampton
County entered a Custody Order based on the
recommendation of a Master, not upon the
determination of a Judge of the Common Pleas Court
of Northampton County.
b. The Common Pleas Court of Northampton County
enter a Custody Order without providing Plaintiff a
trial or evidentiary hearing.
c. The Common Pleas Court of Northampton County
granted Christy Scarborough primary physical
custody of S.S. without providing Plaintiff a trial or
evidentiary hearing.
d. The Common Pleas Court of Northampton County
entered a custody order and granted Christy
Scarborough primary physical custody of S.S.
without allowing Plaintiff to obtain a Custody
Evaluation involving both Parties, without just
cause, and without proving Plaintiff to be unfit.
e. The Common Pleas Court of Northampton county
entered a custody order and granted Christy
Scarborough primary physical custody of S.S.
without requiring Christy Scarborough to participate
in a custody evaluation with Dr. Esteve, even though

- 26 -

Christy Scarborough had agreed to undergo a
custody evaluation with Dr. Esteve.
f. The Common Pleas Court of Northampton County
entered a custody order and granted Christy
Scarborough primary physical custody of S.S.
without timely considering psychological evidence,
testing, and data demonstrating that Christy
Scarborough suffers from borderline personality
disorder.
g. The Common Pleas Court of Northampton County
entered a custody order and granted Christy
Scarborough primary physical custody of S.S. that
was allegedly agreed to by Plaintiff; however,
Plaintiff had not agreed to said custody order.
h. The Common Pleas Court of Northampton County
entered a custody order and granted Christy
Scarborough primary physical custody of S.S. for
“primary custody" even though “primary custody"
was not an issue in the litigation/pleadings at that
time.
i. The Common Pleas Court of Northampton County
failed to act in a speedy manner in determining the
custody of S.S.
j. The Common Pleas Court of Northampton County
routinely changed judges in the custody action
involving S.S., which created a situation in which
the Court failed to consider all of the evidence as a
whole and act consistently with orders by prior
judges.
k. The Common Pleas Court of Northampton County
entered an Order stating that the Order resolves all
pending motions and petitions even though the order
did not resolve all pending motions and petitions.
l. The Common Pleas Court of Northampton County
and the Judges and Masters involved in the custody

- 27 -

action involving S.S. failed to read and consider all
pleadings filed by Plaintiff.
m. The Common Pleas Court of Northampton
County failed to oversee and regulate the conduct of
Masters involved in the custody action involving S.S.
n. The Common Pleas Court of Northampton County
failed to require Christy Scarborough to comply with
agreements she made with Plaintiff, such as the
agreement for Dr. Esteve to complete a custody
evaluation.
o. The Common Pleas Court of Northampton County
routinely denied Motions and Petitions by Plaintiff
without fully considering said Motions and Petitions
and without oral argument.
p. The Common Pleas Court of Northampton County
failed to consider Christy Scarborough’s motive
when it granted her Petition to relocate with the
child.
q. The Common Pleas Court of Northampton
proceeded with the custody action involving S.S.
even though venue should have been in Bucks
County, Pennsylvania.
r. The Common Pleas Court of Northampton County
materially modified the role of Dr. Esteve to act as a
“marital therapist" instead of a custody evaluator.
s. The Common pleas Court of Northampton
obstructed Plaintiffs discovery in the underlying
custody matter.
t. The Common Pleas Court of Northampton County
disallowed and/or ruled out all possible neutral
custody evaluators.
u. Without adequate basis, the Common Pleas Court
of Northampton disallowed Dr. Esteve from being
the custody evaluator.

-28-

v. The Common Pleas Court of Northampton County
appointed Phil Kinney to serve as a custody
evaluator even though he was not qualified and had
been sanctioned and reprimanded by the Bureau of
Professional and Occupational Affairs for violating
ethical principals and deviating from professional
guidelines and standards.
w. The Common Pleas Court of Northampton failed
to act upon, or rule upon, Motions and/or Petitions
filed by Plaintiff.
x. The Common Pleas Court of Northampton
appointed Dr. Lane to evaluate Christy Scarborough
but refused to allow Plaintiff to communicate with
Dr. Lane.
y. The Common pleas Court of Northampton County
ordered a Brief Focused evaluation without having
any focus, when the Court should have ordered a full
custody evaluation.
z. The Common Pleas court of Northampton County
allowed the minor child, S.S. to be involved in
evaluations even though the Parties agreed that she
would not be involved.
aa. The Common Pleas Court of Northampton
County allowed Masters to act outside the scope of
law.
bb. The Common Pleas Court of Northampton
County failed to adequately supervise Masters,
cc. the Common pleas Court of Northampton County
failed to accomodate his protected disability,
dd. The Common Pleas Court of Northampton
County allowed Christy Scarborough to have S.S.
participate in therapy without considering Plaintiffs
choice of counselor for S.S.
ee. The Common Pleas Court of Northampton
County violated Plaintiffs right of joint legal custody

-29-

and right to raise his child by failing to consider his
choice of counselor for S.S.
ff. The Common Pleas Court of Northampton County
by failing to protect the constitutionally protected
relationship of a parent and child.
65. Throughout the course of the custody litigation,
Plaintiffs due process rights protected by the U.S.
Constitution were violated by the Supreme Court of
Pennsylvania by its acts and omissions which
include, but are not limited to, the following:
a. By dismisssing or quashing all appeals filed by
Plaintiff in which he seeks assert his due process
rights under the U.S. Constitution in the custody
action involving his daughter.
b. By failing to assert proper control and authority
over the Common Pleas Court of Northampton
County and to protect Plaintiffs due process rights.
66. Despite several requests, through appeal and
requesting a King’s Bench/excercise of extraordinary
power, the Pennsylvania Supreme Court has failed
to assert proper control and authority over the
Common Pleas Court of Northampton County and to
protect Plaintiffs due process rights.
67. Due to Defendant’s violation of Plaintiffs due
process rights, Plaintiff has been unable to have a
fair and impartial custody trial.
68. Without the relief requested herein, it is
impossible for Plaintiff to have a fair and impartial
custody trial.
WHEREFORE, Plaintiff respectfully requests
that this Honorable Court provide the following:
A. Declare that the actions of the Court of Common
Pleas of Northampton County and the Supreme
Court of Pennsylvania violated Plaintiffs due process
rights;

-30-

B. Ordering Defendants to pay compensatory
damages to Plaintiff;
C. Ordering Defendants to restore and/or place
venue of Plaintiff s Pennsylvania custody case
involving Christy Scarborough in Bucks County,
Pennsylvania;
D. Ordering Defendants to order that Plaintiff and
Christy Scarborough undergo a custody evaluation
with Dr. Esteve, but not involve the child in said
evaluation;
E. Ordering Defendants to pay Plaintiffs reasonable
attorney fees and costs; and
F. Such other financial or equitable relief as is
reasonable and just.
JURY TRIAL DEMAND
Plaintiff hereby requests a jury trial in this matter.
LAW OFFICES OF SCHROLL AND BOWMAN
/s/ Bryan C. Schroll
BRYAN C. SCHROLL, ESQ.
PA Attorney I.D. 65835
Attorney for Plaintiff
Law Offices of Schroll and Bowman
603 Sheppard Road
Voorhees, NJ 08043
(856)596-6982
bschroll@schrollandbowman.com
Dated: 6/29/18

- 31 -

6a
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
E. THOMAS SCARBOROUGH III
Appellant- Plaintiff
v.

No. 19-2455

COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, et al.
Appellee- Defendant
MOTION IN SUPPORT OF REQUESTED
MANDAMUS RELIEF FOR DISCOVERY AND
SUMMARY JUDGEMENT
Now comes the above-named Plaintiff, acting
on his own behalf, hereby moves this Honorable
Court to enter an Order, to investigate the internal
operations of the Commonwealth Court and offers in
support the following:
1. The writ to compel discovery will be in aid of the
Court's appellate jurisdiction, because the facts
underlying this claim would be sufficient to establish
by clear and convincing evidence that Defendant has
and continues to violate Plaintiff/Father’s
guaranteed Constitutional Rights.
2. By allowing and enabling discovery, the Federal
Court may provide summary judgement of
Defendant’s fraud (inter Alia). The alleged fraud is a
factual predicate that could not have been previously

-32-

discovered through the exercise of due diligence. The
Plaintiff7Father has exhausted the remedies
available in the courts of the State, whereas
circumstances exist that render such process
ineffective to protect the rights of PlaintiffiFather.
3. The relief sought is from the judgment of a state
court, that will not investigate the fraud and other
crimes alleged. This decision is contrary to clearly
established Federal law, as determined by the
Supreme Court of the United States. The State
Court’s decision to ignore criminal allegations was
based on an unreasonable determination of the facts,
in light of the evidence presented in 126 MM 2018.
This deliberate indifference evidences the absence of
available State corrective process because no
reasonable fact finder would ignore credible evidence
supporting credible allegations of fraud upon the
Court and other crimes.
4. Appellant’s Brief advances specific federal crimes
alleged to have been committed by Defendant. Pages
67-69 of Appellant’s Brief, requests emergency relief
for discovery pursuant to 28 U.S.C. § 1361.
“Exceptional circumstances warrant judicial
intervention into the internal operations of the
Commonwealth Court.”
5. The exceptional circumstances obstructing
discovery, warrant the exercise of this Court's
discretionary powers. Adequate relief cannot be
obtained in any other form or from any other court.
In support of this averment, the PlaintiffiFather
offers his appended 2018 Kings Bench Petition,
which begs the same relief previously requested in
684 MAL 2017; 271 MT 2011; 135 MM 2009. This
document (126 MM 2018) is essential to

- 33 -

understanding that the relief sought is not available
in any other court.
6. Additionally, the Pennsylvania Disciplinary Board
twice refused pleas to investigate discovery
interference [(C2-11-503) and complaint in 2017].
The Judicial Conduct Board failed to investigate
2011-257; 2017-142; 2017-143; 2017-144. The State
Court will not investigate the alleged malicious
abuse of process, see appended October 8, 2017
correspondence.
7. Federal law enforcement agents investigate
potential violations of federal law, to include the
violation of civil rights. The Attorney General has
established guidelines for domestic FBI operations
(Department of Justice). The general objective of
these Guidelines is the full utilization of all
authorities and investigative methods, consistent
with the Constitution and laws of the United States,
to protect the United States and its people from
federal crimes.
8. A full investigation may be initiated if there is an
articulable factual basis for the investigation that
reasonably indicates that a federal crime has
occurred. 126 MM 2018 provides a factual basis for
Ordering emergency relief for a full federal
investigation.
WHEREFORE, Plaintiff/Father renews his
request for the Appellate Court to Order emergency
relief for discovery and or any other relief deemed
appropriate.
Respectfully submitted,
September 27, 2019
E. Thomas Scarborough III, pro se

- 34-

-7a
In the Supreme Court for the Commonwealth
of Pennsylvania
Middle District
No. 126. M.D. Misc. Docket 2018 referencing;
684 MAL 2017; 271 MT 2011; 135 MM 2009
E. THOMAS SCARBOROUGH III
v.
NORTHAMPTON COUNTY COURT OF COMMON
PLEAS
APPLICATION FOR LEAVE TO FILE
ORIGINAL PROCESS IN THE SUPREME
COURT & EMERGENCY APPLICATION FOR
EXTRAORDINARY RELIEF FROM
NORTHAMPTON COURT
E. Thomas Scarborough III, pro se
3876 Applebutter Road
Perkasie, PA 18944
(267) 221-7236
etscar@aol.com
PARTIES
1. Petitioner/Father, E. Thomas Scarborough III,
(hereinafter “Father”) is the father of S. S., and is
the Father in a custody action, E. Thomas

- 35 -

Scarborough III v. Christy Scarborough, Common
Pleas Court of Northampton County, No. 2005-2186
(hereinafter “custody action”).
2. The Court of Common Pleas of Northampton
County (hereinafter “Northampton Court”) is the
Defendant in this proceeding and has incorrectly
accepted jurisdiction of the underlying custody
action, violated the due process rights of Father,
failed to timely obtain a Custody Evaluation from an
objective, qualified individual, interfered with
discovery and entered Orders that are not in the best
interests of S. S..
3. Christy Scarborough (hereinafter “Mother”) is the
mother of S. S. and is the Defendant in a custody
action.
4. S. S. was born on December 27, 2004, is the child
of Father and Mother, is currently 13 M> years old,
and is the child involved in the underlying custody
action.
JURISDICTION AND RELIEF SOUGHT
5. For the best interests of S. S., Father requests
leave to file original process in this Court for custody
of his daughter, S. S..
6. Father/Petitioner requests this Court to exercise
its “King’s Bench Power” and/or exercise its “power
of extraordinary jurisdiction”.
7. Extraordinary jurisdiction allows the
Pennsylvania Supreme Court to accept “any matter
pending before any court... of this Commonwealth”
and allows this Court to accept “plenary jurisdiction
of such matter at any stage thereof [to] enter a final
order or otherwise cause right and justice to be
done.” See 42 Pa. C.S. § 726.
8. This Court’s King’s Bench jurisdiction allows the
Court to exercise the “power of general

-36-

superintendency over inferior tribunals.” See Board
of Revision of Taxes. City of Philadelphia v. City of
Philadelphia. 4 A.3d 610, 620 (2010).1
9. Father/Petitioner requests this Court to invoke
original jurisdiction of the custody matter between
Father and Mother involving the child, S. S..
10. Father/Petitioner requests that this Court vacate
and dismiss all orders entered by the Northampton
Court in custody action.
11. If this Court does not accept original jurisdiction
of the custody matter, then Father/Petitioner
requests that this Court transfer jurisdiction/venue
of the custody action to the Common Pleas Court of
Bucks County.
12. Father/Petitioner request that this Court order
Mother to complete the previously agreed upon
Custody Evaluation with Dr. Ronald Esteve, which
the Northampton Court refused to have completed.
13. This Court should exercise its King’s Bench
Power and/or extraordinary jurisdiction to cause
right and justice to be done pursuant to 41 Pa. C.S. §
726, which has not been done by the Northampton
Court.
14. Importantly, this Court should exercise its King’s
Bench Power and/or extraordinary jurisdiction
because this matter involves the best interests of a
child, which have not been considered or respected
by the Northampton Court.
15. This Court should exercise its King’s Bench
Power and/or extraordinary jurisdiction because it
1 The King’s Bench power originated in the Act of May 22, 1722,1 Sm.
L. 131,140 Section XII, which gave the Court “all jurisdictions and
powers of the three superior courts at Westminster, namely, the King’s
Bench, the Common Pleas, and the Exchequer” Carpentertown Coal &
Coke Co. v. Laird. 61 A.2d 426, 428 (1948). The King’s Bench power
survived the 1968 amendment to the Pennsylvania Constitution.

- 37 -

has a duty to care for, and protect, the well-being of
children.
16. This Court should exercise its King’s Bench
Power and/or extraordinary jurisdiction because it
has a duty to ensure that the lower court, specifically
the Northampton Court, complies with the laws and
procedures required by lower courts.
17. This Court should exercise its King’s Bench
Power and/or extraordinary jurisdiction in order to
protect the parental right and due process rights of
Father, which have not been considered or respected
by the Northampton Court.
18. This Court should exercise its King’s Bench
Power and/or extraordinary jurisdiction because the
Northampton Court has substantially demonstrated
that the obstructed, relevant issues advanced herein,
will never be reviewed.
STATEMENT OF FACTS
19. Father married Mother on December 31, 2003.
20. Father and Mother had a child, S. S., who was
born on December 27, 2004.
21. Approximately one month prior to the birth of S.
S., Mother, moved from her residence with Father in
Bucks County, Pennsylvania, to Northampton
County, Pennsylvania.
22. Mother was a tenured employee of the Central
Bucks School District.
23. At all relevant times herein, Father resided and
continues to reside, in Central Bucks County.
24. Father filed an Amended Complaint for Divorce
and Custody (Attached as Exhibit “1”) in the Court
of Common Pleas of Bucks County Pennsylvania,
prior to S. S.’s sixth month, because Mother refused
to allow unsupervised visitation.

-38-

25. The Bucks County Court of Common Pleas
Prothonotary receipt dated June 27, 2005, verifies
the venue of original jurisdiction. Said receipt is
marked as Exhibit “2”.
26. In 2007, a Decree of Divorce was entered by the
Court of Common Pleas of Bucks County,
Pennsylvania.
27. Since early 2005, the litigation of the custody of
S. S. took place in the Court of Common Pleas of
Northampton County. However, the initial filing was
in the Bucks County Court of Common Pleas,
because Mother’s “Complaint for Support” was
withdrawn from the Northampton Court on May 31,
2005. Said Order is marked as Exhibit “3”.
28. In June 2005, approximately six months after the
birth of S. S., Father and Mother agree to proceed
with a custody evaluation by Dr. Ronald Esteve. See
Exhibit “4” (Petition for Psychological Examination,
paragraphs 13-23), Exhibit “5” (email from Mother
confirming she is proceeding with Dr. Esteve), and
Exhibit “6” (document from Dr. Esteve).
29. Father paid for and initiated his participation
with the custody evaluation with Dr. Esteve.
30. Mother canceled her appointment with Dr.
Esteve and has failed and/or refused to participate in
the custody evaluation with Dr. Esteve.
31. To date, the custody evaluation by Dr. Ronald
Esteve has never been completed.
32. In September 2005, the Parties attended a
contested custody conference with Master Hogan. At
the conference, both Parties requested a custody
evaluation, including psychological evaluations (See
Exhibit “7” in which even Mother requested
psychological evaluations (question 6 on page 2).
Despite both Parties requesting the custody

-39-

evaluations, the Master denied the requests for a
custody evaluation without documenting any reason
for the denial and the Court entered an Order
without any psychological evaluations (See Exhibit
“8”, Court Order dated November 16, 2005), which
does not order psychological evaluations.
33. On November 16, 2005, the Northampton Court
entered an unauthorized Order granting Mother
primary physical custody of S. S. and Father partial
physical custody with limited visitation/parenting
time with S. S.. A copy of this Order is attached as
Exhibit “8”.
34. Father never agreed that Mother would have
primary physical custody of S. S..
35. For the November 16, 2005, Order, the
Northampton Court claimed Father, at the custody
conference, agreed to granting Mother primary
physical custody of S. S. and Father having partial
physical custody with the limited
visitation/parenting time schedule. Furthermore,
Father claims he did not consent to these terms.
There is no record of the custody conference and no
proof that Father agreed to these terms, however
Father’s original petition for “Joint Legal and Joint
Physical Custody” has never been tried after full
discovery. See Exhibit “1” (Amended Complaint,
Count III, requesting joint legal and joint physical
custody).
36. The Northampton Court Order of November 16,
2005, was entered without the consent of Father.
37. It took the Northampton Court more than two
months after the initial contested custody conference
to enter any order.

-40-

38. The Northampton Court Order of November 16,
2005, was entered without a trial or hearing of any
kind.
39. The Noi'thampton Court Order of November 16,
2005, was entered without the completion of any
custody evaluation.
40. The Northampton Court Order of November 16,
2005, is invalid because Defendant did not consent to
Mother having primary physical custody, it was
entered by a Master who did not have authority to
grant primary physical custody to Mother, and it
was the result of fraud (namely, a false claim that
Father consented to the Order).
41. Despite the invalidity of the Northampton Court
Order of November 16, 2005, the basic terms of the
order (specifically, Mother being granted primary
physical custody of S. S.), have never been
significantly modified or revised by the Court.
42. Even though Father and Mother had agreed to
have Dr. Esteve complete a custody evaluation, the
Northampton Court failed to order Mother to
participate in the custody evaluation.
43. In December 2005, Mother petitioned the
Northampton Court to delay overnight visitation and
to require Father to complete unreasonable
“communication charts”, which are attached as
Exhibit “9”.
44. Mother was hospitalized for hives, when
overnight visitation was finally Ordered. Mother
demanded an additional report of the child’s
activities when separated from S. S.. See Exhibit
“10”.

45. On January 13, 2006, Father’s attorney filed the
appended verified Petition for Psychological
Evaluation, advancing the initial pretrial

- 41 -

statements, which clarify Dr. Esteve’s distinct role
as the Parties’ “agreed custody evaluator”. See
Exhibit “4”.
46. On February 10, 2006, the attorneys for Father
and Mother attended a custody conference with
Master Murray. The Parties were excused from
participating with said conference.
47. The Northampton Court failed to document the
outcome of the custody conference with Master
Murray that occurred on February 10, 2006.
48. At said conference, Mother, through her
attorney, for the first time, objected to a custody
evaluation by Dr. Esteve, claiming Dr. Esteve had a
conflict of interest, by falsely alleging he had
previously treated Father and/or Mother.
49. The Northampton Court continued to ignore the
discovery of S. S.’s best interest, which includes, but
is not limited to, the Court’s failure to order
psychological evaluations, causing Father’s attorney
to write a letter (attached as Exhibit “11”) to
Mother’s attorney stating, “I do not recall ever
having a request for Psychological Evaluation denied
by the Court, especially in cases involving young
children.”
50. The Northampton Court delayed the third
custody conference for 224 days.
51. Later, it was determined that Dr. Esteve had
never treated Father or Mother and there was no
conflict of interest. Exhibit “12” is a letter from Dr.
Esteve stating that the Court Order contains
“statements reflecting my involvement in this matter
are inaccurate...” and confirmed that he was
retained solely to perform a custody evaluation and
there was no conflict of interest. In reference to the
Custody Conference Report, he stated “This is

- 42 -

completely inconsistent with my contact with both of
the parties and is simply false.”
52. On September 22, 2006, the Northampton Court
entered an Order for Dr. Kinney to complete a
custody evaluation.
53. A Custody Conference was held with the Parties
that resulted in a Custody Conference Report dated
October 12, 2006 (attached as Exhibit “13”). This
report documents that Mother’s attorney objected to
Dr. Esteve claiming a conflict of interest and the
conference officer appointed Dr. Kinney to perform
an evaluation. This recommendation was then
entered into a Court Order dated September 22,
2006, which is also attached as Exhibit “14”. In
reality, the conference officer and Court should have
appointed Dr. Esteve because the Parties had
previously agreed to Dr. Esteve and there was no
conflict of interest, as previously explained and
documented.
54. Importantly, this Order of September 22, 2006
materially modifies Dr. Esteve’s role to “marital
therapist”.
55. Father never consented to the Court modifying
the role of Dr. Esteve to “marital therapist”.
56. Father objected to having Dr. Kinney complete a
custody evaluation and requested that Dr. Esteve
complete the custody evaluation.
57. Dr. Kinney documents Mother’s claim that she
never met Dr. Esteve and confirmed that Dr. Esteve
was never the Parties marital therapist.
58. Dr. Kinney never completed a full custody
evaluation.
59. However, Dr. Kinney performed psychological
testing on Father and Mother. Dr. Kinney delayed
the release of the 2006 MMPI-2 raw data. The

- 43 -

appended May 15, 2007 Order required said release
“within seventy-two (72) hours”. This Order is
marked as Exhibit “15”.
60. The Northampton Court again waited almost 300
days, to again mandate the release of the 2006
MMPI-2 raw data “within twenty-four (24) hours”.
The February 29, 2008 Order is marked as Exhibit
“16”.
61. The raw data from the testing confirmed Father’s
concerns regarding Mother’s mental health and
stability. MMPI-2 raw data is attached as Exhibit
“17”.
62. Later, Dr. Kinney was disciplined and/or
sanctioned for his unethical behavior in another case
and he was no longer qualified to complete a custody
evaluation. Final Adjudication and Order for Dr.
Kinney is attached as Exhibit *18”.
63. A Custody Conference was held with the Parties
on April 4, 2008 that resulted in a Custody
Conference Report (attached as Exhibit “19”). This
report recommends that Father’s request for
increased time is “deferred”. The conference officer
recommends a custody evaluation without prior
testing (MMPI-2) and reports, in order to “avoid
prolonged litigation.” This recommendation which
obstructed the finally released 2006 MMPI-2 raw
data, was then entered into a Court Order dated
April 4, 2018, which is also attached as Exhibit “20”.
64. This Order improperly restricts the newly
appointed evaluator from contact or consultation
with previous psychologists because “their reports
are the subject of criticism by both parties”.
65. On April 4, 2008, the Northampton Court
appointed Dr. Nastasee to perform a custody
evaluation. Said Order is attached as Exhibit “20”,

- 44 -

which again “DEFERRED” Father’s request for
additional time.
66. Dr. Nastasee declined the appointment as a
custody evaluator in this case.
67. On May 9, 2008 Father filed a Motion for
Designation of Complex Custody Case and
Allowance of Discovery. The Northampton Court
delayed hearing for another 190 days.
68. The Northampton Court’s December 16, 2008
Order (attached as Exhibit “21”) “DENIED” Father’s
Petition for the “Allowance of Discovery”. Page 12
concludes that “Father’s request that Dr. Nastasee
be permitted to contact or consult with Dr. Esteve,
Dr. Kinney, and Dr. Gordon will be denied. In
accordance with the same reasoning, we additionally
deny Father’s request to allow Dr. Nastasee to
review Dr. Kinney’s raw data.”
69. The Northampton Court “DENIED” Father’s
Plea for Reconsideration of the December 16, 2008
Interlocutory Order. By Order, the Northampton
Court, designated this case of first impression as
“not complex”, while permanently obstructing the
most objective evidence (MMPI-2). Father’s Petition
for Reconsideration is attached as Exhibit “22”.
70. The Northampton Court never ruled on the June
26, 2009 Petition for Special Relief marked as
Exhibit “23”. While the Court entered an order for a
hearing to take place on July 31, 2009, the hearing
did not take place and there is no order from any
hearing on July 31, 2009, which confirms that no
hearing was held on this Petition, and the Court
ignored Father’s Petition. Said Petition again
advances the Parties agreement for a custody
evaluation with Dr. Esteve.

-45-

71. In 2010, Dr. Ginsberg completed a custody
evaluation but was improperly restricted by Order.
Dr. Ginsberg was unable to view the appended
MMPI-2 raw data, nor contact other experts. Dr.
Ginsberg documents Mother’s confirmation, of being
coached by her attorney, with the MMPI-2 testing.
72. In 2010, Dr. Gordon completed an expert report
that critiqued Dr. Ginsberg’s custody evaluation. Dr.
Gordon also exposes the maliciously abused process.
Said report is attached as Exhibit “24”.
73. Thereafter, Father and Mother again agreed that
Dr. Esteve would complete a custody evaluation.
74. Again, Mother breached the Parties agreement to
have Dr. Esteve perform a custody evaluation and
she refused and/or failed to participate in a custody
evaluation with Dr. Esteve.
75. From April 2008, until February 2016, the
Northampton Court dealt with Petitions for
Contempt against Mother and Petitions to modify
custody. Generally, the Petitions resulted in Mother
being found in contempt and minor changes in
Father’s partial custody/visitation/parenting time
schedule. However, no significant modifications
were made, and Mother continued to have primary
physical custody of S. S.. See Order dated June 9,
2016, attached as Exhibit “25”, which demonstrates
the Court holding Mother in contempt (paragraph 1),
but not making any significant changes to custody.
76. Importantly, despite numerous requests by
Father to have the custody evaluation completed, to
void the Order granting Mother primary physical
custody, and for a custody trial, the Northampton
Court refused and/or failed to do grant these
requests. Instead, the Northampton Court delayed
any meaningful trial for the custody of S. S..

-46-

77. In February 2016, the Northampton Court held a
custody trial. The trial was unprepared because the
Northampton Court did not allow, and obstructed,
the discovery of Mother’s mental fitness.
78. The said custody trial was conducted without a
full custody evaluation because Mother refused
and/or failed to participate in the custody evaluation
with Dr. Esteve and the Northampton Court failed to
require Mother to participate in the custody
evaluation with Dr. Esteve.
79. Any opinions offered by any custody experts were
not beneficial to the Court due to the fact that too
much time passed between the limited/partial
examinations and the custody trial.
80. The Northampton Court did note that Dr.
Gordon testified that he reviewed the raw data from
the psychological testing and he believed Mother was
coached by her attorney, so she would “respond
positively to the information in the MMPI testing”
and “some of Mother’s testing data revealed that she
had significant elevation in a scale called
psychopathic deviant.” See the June 9, 2016 Order
attached as Exhibit “25”, page 23, lines 12-13 and
14-16.
81. The Northampton Court ignored the evidence
that Mother “had significant elevation in a scale
called psychopathic deviant” or that she was coached
by her attorney. See Transcript of Dr. Gordon’s
testimony attached as Exhibit “26”, pages 187-220 or
specifically at page 200.
82. Ultimately, the Northampton Court entered an
Order on June 9, 2016 (attached as Exhibit “25”),
that essentially maintained the prior Orders by
granting primary physical custody of S. S. to Mother

- 47 -

and granting partial physical custody of S. S. to
Father.
83. Until February 2016, the Northampton Court did
not have a custody trial. This custody action went
from early 2005, until 2016, without having a
custody trial.
84. The Northampton Court failed to act correctly by
allowing eleven years to pass without a custody trial.
85. By allowing an eleven-year delay and by not
requiring Mother to participate in the custody
evaluation with Dr. Esteve, the Court did not have a
current and valid custody evaluation for its decision
articulated in the June 9, 2016, Order.
86. After the four-day custody trial, yet again, the
Northampton Court unjustly changed Judges. Said
act prompted Father’s plea for a change in venue.
Father’s appended Recusal Petition is marked as
Exhibit “27”.
87. The Northampton Court has failed to even
review all of the pleadings and documents filed by
Father. Specifically, the President Judge stated, “I
have no idea what [Father’s] petition for recusal is
all about”, “Well, I don’t know that anyone is going
to want to read it”, and “I don’t want to know about
the background unless the background has to do
with me” and “it (background) doesn’t matter to me
at all.” The February 2017 Notes of Testimony are
attached, marked as Exhibit “28”. See page 21 at 18
and page 26 at 21.
88. At one point, the Northampton Court appointed
Dr. Lane to perform a Brief Focused Evaluation of
Mother; however, the Northampton Court did not
give Dr. Lane any focus, so it was impossible for Dr.
Lane to perform a Brief Focused Evaluation of

- 48-

Mother. Dr. Lane’s letter to the Court is attached as
Exhibit “29”.
89. Moreover, the Northampton Court prohibited Dr.
Lane from having any communication with Father,
which made it impossible for a complete and
accurate evaluation to be completed. See Court
Order dated December 5, 2016, attached as Exhibit
“30”, which prohibits third parties from being
involved in the evaluation and Dr. Lane’s letter to
the Court, attached as Exhibit “31”, in which he
refuses to have communication with Father.
90. The Judges of the Northampton Court have not
given adequate and serious consideration to Father’s
pleadings and claims; instead the Northampton
Court simply dismisses Father by characterizing
Father in pejorative terms. For example, the Court
Order entered on January 5, 2017, attached as
Exhibit “32”, the judge says, “it was unsurprising
that this is Father’s sixth petition for contempt” and
that Father’s answer to Mother petition “included
attachments nearly one inch thick” (page 3). Father’s
pleas are improperly belittled by the Northampton
Court as “a waste of time” and “appeal not worthy of
further comment”. Father is inappropriately
diminished to a “serial pro se litigant”, See PA RAP
Statement dated 1/12/17 marked as Exhibit “33”.
91. Father has ADD, which is a protected disability,
and the Northampton Court failed to provide
adequate accommodations and time for Father to
present his case at trial. The existence of Father’s
protected disability is another important reason for
the Court to read all of Father’s pleadings and to
consider the background of this matter. See Exhibit
“34”.

-49-

92. Father tried to obtain the court’s cooperation and
accommodation for his protected disability by
writing the Court a letter dated April 25, 2017,
attached as Exhibit “35”, requesting an
accommodation; however, the Court again ignored
Father.
93. On October 28, 2016, the Northampton Court
entered an Order for S. S. to engage in counseling;
however, the Court did not even consider Father’s
choice of counselors.
94. The Northampton Court has concluded, at
various times, that Mother is in contempt for
violating Court Orders, such as her violation of
Father’s rights of joint legal custody, acting in ways
that alienate the child from Father, and violating
Father’s rights of partial physical custody.
CAUSE OF ACTION
95. Father is desperately pleading with this
Supreme Court to exercise its King’s Bench Power
and extraordinary jurisdiction to correct the errors of
the Northampton Court, protect Father’s
constitutional rights, and, most importantly, to act
in the best interests of the child.
96. At first glance, it may appear that Father is, as
claimed by the Northampton Court, a “serial pro se
litigant” who is not satisfied with the lower court
rulings. However, that is not the case. Father is
begging this Court to act on behalf of the best
interests of the child. The Northampton Court has
made many errors, all of which have damaged the
child.
97. The Northampton Court has made numerous
errors, which will be further explained hereafter,
which should cause this Court to exercise its King’s
Bench Power and extraordinary jurisdiction.

- 50-

98. Initially, this Court should note that it took
eleven years for the Northampton Court to have a
custody trial. This eleven-year delay should get this
Court’s attention and cause it to act.
99. In addition, there are numerous other errors that
should cause this Court to act.
100. The Northampton Court entered a Custody
Order based on the recommendations of a Master,
not upon the determination of a Judge of the
Northampton Court. Under Pennsylvania Law, a
Master does not have the power to grant primary
physical custody.
101. The Northampton Court entered a Custody
Order without providing Father a trial or
evidentiary hearing. This Order remained
substantially in effect for the eleven years until the
custody trial. The Order should never have been
entered without a trial or evidentiary hearing and
then the error was made worse by having the order
be in effect for over eleven years.
102. The Northampton Court granted Mother
primary physical custody of S. S. without providing
Father a trial or evidentiary hearing.
103. The Northampton Court entered a custody
order and granted Mother primary physical custody
of S. S. without allowing Father to obtain a Custody
Evaluation involving both Parties, without just
cause, and without proving Father to be unfit.
104. The Northampton Court entered a custody
order and granted Mother primary physical custody
of S. S. without requiring Mother to participate in a
custody evaluation with Dr. Esteve, even though
Mother had agreed to undergo a custody evaluation
with Dr. Esteve. After thirteen years, this case
remains unprepared for trial.

- 51 -

105. The Northampton Court entered a custody
order and granted Mother primary physical custody
of S. S. without considei'ing timely psychological
evidence, testing, and data demonstrating that
Mother suffers from borderline personality disorder.
106. The Northampton Court entered a custody
order and granted Mother primary physical custody
of S. S. that was allegedly agreed to by Father;
however, Father had not agreed to said custody
order.
107. More than two months after the initial,
contested custody conference, the Northampton
Court entered a custody order and granted Mother
primary physical custody of S. S. for “primary
custody” even though “primary custody” was not an
issue in the litigation/pleadings.
108. The Northampton Court entered an
unauthorized, fraudulent custody order that
continues to illegally seize miscalculated support
payments.
109. The Northampton Court entered an
unauthorized custody order that failed to consider
the best interest of S. S.. Among other things, this
fraudulent Order detrimentally required S. S. to
travel one hour each way between parents.
110. The Northampton Court “deferred” Father’s
repeated pleas for vacation, right of first refusal and
custody evaluation from 2005 until 2010.
111. The Northampton Court failed to act in a
speedy manner in determining the custody of S. S..
112. The Northampton Court’s failure to document
the February 10, 2006 custody conference obstructed
the administration of law; intending to conceal case
status, abuse discovery, delay hearing and cover up

- 52-

the fraud committed upon the Court, by Officers of
the Court.
113. Jurisdictional fraud motivated the
Northampton Court’s unchallenged and pre­
meditated allowance of relocation, without any
consideration for the discovery of a child’s best
interest.
114. The Northampton Court failed to consider
Mother’s motive when it granted her Petition to
relocate with the child. Mother’s alienating motives
to relocate remain obfuscated, by the Northampton
Court’s failure to test Mother’s motives (Gruber v.
Gruber).,
115. In violation of 231 Pa. §§ 1915.17 & 1930.4,
Father learned of Mother’s relocation after the fact
through his attorney, whereas the Northampton
Court conditionally offered Father shared physical
custody, if he would relocate to the foreign venue.
116. Because Father refused to relocate, Master
(now Judge) Murray and Mother denied Father’s
repeated pleas for vacation, equitable visitation,
right of first refusal and custody evaluation for five
years. Father’s attorney informed him that he would
never get the change in outcome, necessary for
actionable cause.
117. The Northampton Court proceeded with the
custody action involving S. S., even though venue
should have been in Bucks County, Pennsylvania.
118. The Northampton Court materially modified
the role of Dr. Esteve to act as a “marital therapist”
instead of agreed custody evaluator. The completion
of Dr. Esteve’s agreed evaluation was necessary and
remains necessary for trial preparation.
119. The Northampton Court obstructed Father’s
discovery in the underlying custody matter. The

-53-

delay caused by misconduct, permanently conceals
Mother’s avoidance of evaluation and motive to
relocate from future evaluators, with perhaps the
exception of Dr. Esteve.
120. The Northampton Court disallowed and/or
ruled out all possible neutral custody evaluators
which has chronically retarded trial preparation.
121. Without adequate basis, the Northampton
Court disallowed Dr. Esteve from being the custody
evaluator.
122. The Northampton Court appointed Phil Kinney
to serve as a custody evaluator even though he was
not qualified and had been sanctioned and
reprimanded by the Bureau of Professional and
Occupational Affairs for violating ethical principles
and deviating from professional guidelines and
standards.
123. Dr. Kinney reviewed the Father’s unilateral
evaluation and MMPI-2 raw data with Dr. Esteve.
For unknown reasons, Dr. Kinney failed to document
his review or conversation with Dr. Esteve, while
considering Mother’s therapist a “source of
information”. Thereafter by Order, the Northampton
Court prohibits evaluators, from discussing this case
with other experts.
124. The Northampton Court’s December 16, 2008
Interlocutory Order obstructs future evaluator’s
from reviewing the appended 2006 MMPI-2 raw data
and prohibits future evaluator’s from having contact
with prior evaluators and other experts.
125. Dr. Ginsberg’s 2010 custody evaluation
confirmed that Father should not have been denied
vacation and other parental rights for five years.
126. Dr. Ginsberg reports that Mother “does not
understand the importance to S. S.’s development of

- 54-

having Father involved”, Mother “minimizes the
importance and nature of Father’s relationship with
their child”. Said report also documents Mother’s
claim of being coached by her attorney with the
MMPI-2. See Court Order of June 29, 2016, pages 23
and 29 marked as Exhibit “25”.
127. However, by Court Order, the evaluator was
restricted from viewing the appended MMPI raw
data or having contact with Dr. Gordon to
understand how the most objective evidence was
tampered with, as described in Dr. Gordon’s
appended 2010 expert report.
128. The Northampton Court obstructed MMPI-2
raw data by Order. In this case, the most relevant
factor (#15 mental fitness) is discovered by the most
objective evidence, however further discovery
remains abandoned by Order.
129. Father’s questions concerning Mother’s mental
fitness, are validated by Dr. Gordon’s expert
testimony, relevant to the obstructed MMPI-2 raw
data. However, the Court’s ongoing failure to
investigate or appropriately address Father’s
credible claims about the abused process, enables
Mother to question the reliability of Father’s
judgment.
130. The Northampton Court abandoned the factual
procedural history by failing to obtain “the entire
record”, as stipulated by agreement. See the Notes of
Testimony Volume IV page 190, marked as Exhibit
“36”. The Northampton Court abused the entire
court process and Father’s Due Process rights by
failing to consider the entire record.
131. Further violating due process, the trial Judge
offered misinformed opinions and conclusions about

- 55-

the discovery of Mother’s mental fitness and Father’s
judgement thereof, after the reconsideration hearing.
132. The Northampton Court routinely changed
judges in the custody action involving S. S., which
created a situation in which the Court failed to
consider all of the evidence as a whole and act
consistently with orders by prior judges.
133. The President Judge of the Northampton Court
admittedly did not read all of Father’s pleadings and
documents and stated that he did not want to know
about the background of the case.
134. The Northampton Court attempted to quash
Father’s Recusal Petition by entering an Order,
stating that the Order resolves all pending motions
and petitions, even though the Order did not resolve
all pending motions and petitions.
135. The Northampton Court’s fraud further
obstructed discovery by errantly quashing Father’s
fifth petition for contempt. The Northampton Court
failed to review Mother’s continuing contemptuous
conduct after the trial. See Father’s petition with
only two exhibits “B” and “S” marked as Exhibit
“37”. The review of Mother’s interference with
telephone calls, was also improperly obstructed. Text
messages reveal the control exercised by Mother
over S. S.; “should I call my dad back and if I do
should I tell him where I am.” Mother asks S. S.,
“Are you deleting our texts?” “My dad just called
should I tell him that in here.” Mother instructs,
“You don’t have to call him back if you don’t want
to.”

136. Importantly, S. S. has been alienated from
Father since birth. The May 7, 2009 document,
marked as Exhibit “38”, evidences the reality of S.
S.’s circumstance with telephone contact. Because of

-56-

the January 5, 2017 Order, S. S. rarely returns calls.
The last paragraph of Exhibit “32”, page 2 directs
either party to “file a petition to enforce this custody
agreement against Daughter” (i.e. when calls aren’t
returned). By Order, the Northampton Court has
improperly restricted Father’s contact with S. S. for
weeks at a time.
137. The abused discovery undermines the Court’s
understanding of the Parties’ perceptions, motives
and abilities. The appended April 30, 2015
correspondence, marked as Exhibit “39”, evidences
that Mother is unable to recognize nor acknowledge
her ongoing contemptuous conduct and behaviors.
138. Furthermore, Mother is unable to differentiate
S. S.’s best interest from her own. For example, on
page 152 of the Notes of Testimony, Volume III
(Exhibit 26), the Court asks, “and where do you
sleep?” Mother “we sleep in the Master bedroom.”
Court “In the same bed with him?” Mother “uh-huh.”
Court “Next door to her?”
139. The January 5, 2017 Order (attached as Exhibit
“32”) does not require the Parties to co parent. The
abused discovei’y has crippled the Northampton
Court’s ability to adjudicate relevant issues. The
Northampton Court has empowered Mother to
unilaterally dictate the schedule without remedy.
For example, Father’s Day weekend has been taken
from Father, each of the last two years (inter Alia)
and there is nothing Father can do about it.
140. The Northampton Court and the Judges and
Masters involved in the custody action involving S.
S. failed to read and consider all pleadings filed by
Father.

- 57 -

141. The Northampton Court failed to oversee and
regulate the conduct of Masters involved in the
custody action involving S. S..
142. The Northampton Court failed to require
Mother to comply with agreements she made with
Father, specifically to undergo a full custody
evaluation with Dr. Esteve.
143. The Northampton Court routinely denied
Motions and Petitions by Father without fully
considering said Motions and Petitions and without
oral argument. See Exhibit “40”.
144. The Northampton Court failed to act upon, or
rule upon, Motions and/or Petitions filed by Father.
145. The Northampton Court appointed Dr. Lane to
evaluate Mother but refused to allow Father to
communicate with Dr. Lane.
146. Due to the Northampton Court’s improper
restrictions, Dr. Lane was unable to learn about
unilateral schedule changes made by Mother.
Whereas, said modifications to the Court Order,
alienated S. S. from Father for many weeks at a
time. Dr. Lane was wrongfully impeded by Order,
from understanding relevant issues, that transpired
during the time of the assessment.
147. The Northampton Court ordered a Brief
Focused Evaluation without having any focus, when
the Court should have ordered a full custody
evaluation.
148. The Northampton Court allowed the minor
child, S. S., to be involved in evaluations even
though the Parties agreed that S. S. would not be
involved.
149. The Northampton Court allowed the minor
child, S. S., to be involved in evaluations even
though the Judge opined that S. S.’s involvement, is

- 58-

contrary to the child’s best interest. See page 30 at
23 and page 50 at 1. February 2017 Notes of
Testimony, marked as Exhibit “28”.
150. The Northampton Court allowed Masters to act
outside the scope of the law.
151. The Northampton Court failed to adequately
supervise Masters.
152. The Northampton Court failed to accommodate
Father’s protected disability.
153. The Northampton Court allowed Mother to
have S. S. participate in therapy without considering
Father’s choice of counselor for S. S..
154. The Northampton Court violated Father’s right
of joint legal custody and right to raise his child by
failing to consider his choice of counselor for S. S..
155. The Northampton Court failed to protect the
constitutionally protected relationship of a parent
and child.
RELIEF SOUGHT
156. Father begs this Court to intervene in this
matter. This Court should investigate the fraud
committed by the Northampton Court, such as
entering an alleged consent order for Mother to have
primary physical custody of the child when Father
never consented to Mother having primary physical
custody of the child.
157. This Court should provide meaningful
remedy for Father and for the best interests of the
child. The Northampton Court made an initial error
by granting Mother primary physical custody by
improperly relying on a Master’s recommendation
and by not having a custody trial. Thereafter, the
Northampton Court has failed to provide any
meaningful remedy to Father; instead, the
Northampton Court has perpetuated the initial error

- 59 -

by continuing the initial invalid court order without
any significant and/or meaningful modifications.
158. A full custody evaluation needs to be performed
and timely considered by the Court. The Court needs
to hear expert testimony regarding the MMPI-2. The
Northampton Court continues to interfere with the
release and consideration of the most objective
evidence (MMPI-2), which remains abandoned by
Order.
159. To discover what is best for S. S., this Court
must fairly assess Mother’s relocation motives and
avoidance of evaluation. The completion of Dr.
Esteve’s agreed custody evaluation remains essential
for trial preparation. The Mother must be Ordered to
honor her agreement (emphasis added).
160. This Court needs to intervene because S. S. is
being harmed by Mother having primary physical
custody, even though she continually violates court
orders and has been found in contempt. Despite the
Northampton Court finding Mother to be in
contempt, the Northampton Court has failed to take
any meaningful action in response to Mother’s
violations and contempt. Such lack of meaningful
action by the Northampton Court is causing harm to
S. S..
161. The current Order does not require Mother to co
parent.
162. This Court must intervene because the entire
custody action should have taken place in Bucks
County because Bucks County has always been the
residence of Father and Bucks County was the
residence of Mother, until she moved just a month
before giving birth. Nevertheless, the Northampton
Court has failed to recuse itself or send the matter to
Bucks County; instead the Northampton Court

-60-

continues to make errors and act in ways that are
detrimental to the best interests of S. S.. Since there
has been jurisdictional fraud, all orders by the
Northampton Court are invalid and void and this
Court should immediately send the matter to Bucks
County.
163. Custody proceedings are intended to be “fast
tracked”; however, it took the Northampton Court
eleven years to have a custody trial. At this point, S.
S. is 13 V2 years old and is being harmed by orders
entered by the Northampton Court. Time is running
out to help S. S.. Since the Northampton Court has
failed to act timely and S. S. is being harmed, this
Court must act immediately to act in the best
interests of S. S. and correct the errors of the
Northampton Court.
Wherefore, the applicant again respectfully requests
this Court exercise original jurisdiction and grant
the applicant the following relief and other such
relief as this Court finds appropi’iate:
(a.) Seal the record due to the sensitivity of the
attachments;
(b.) Immediately assume plenary jurisdiction
of this matter, or alternatively transfer
jurisdiction/venue of the custody action to
the Common Pleas Court of Bucks County;
(c.)
Issue an expedited schedule for the
resolution of this action, including
expedited times for answering this
application;
(d.) Issue an Order voiding the November 16,
2005 Custody Order, vitiating and vacating
all prior opinions, evaluations and Orders;

- 61 -

(e.)

(f.)

(g.)

(h.)

Issue an Order awarding Father primary
custody of S. S., until this Court makes a
final determination on the merits;
Issue an Order appointing Dr. Ronald J.
Esteve as the Custody Evaluator, but not
involve S. S. in said evaluation;
Issue an Order assessing fees and damages
against Respondent in an amount
calculated by the Court; and
Order any other relief, as this Honorable
Court shall deem necessary, just and
proper under the circumstances.

Respectfully submitted,
Dated: July 27, 2018
E. Thomas Scarborough III, pro se

-62-

8aKings Bench (126 MM 2018) abridged exhibits
Exhibit 1 pages 1, 2
SHARRON L. REX, ESQUIRE
1664 DeKalb Pike
Blue Bell, PA 19422
Identification No. 83860
Attorney for Plaintiff
IN THE COURT OF COMMON PLEAS OF
BUCKS COUNTY, PENNSYLVANIA
CIVIL ACTION-DIVORCE
E. THOMAS SCARBOROUGH, III
3876 Applebutter Road
Perkasie, PA 18944
SSN: 162-60-4754
Plaintiff
vs.

Docket No. 05-61942-D-26

CHRISTY J. SCARBOROUGH
148 Virginia Drive
Nazareth, PA 18064
SSN: 209-46-2620
AMENDED DIVORCE COMPLAINT
COUNT 1
Request for No-Fault Divorce under Section 3301 (c)
& (d) of the Divorce Code

-63-

1. Plaintiff is E. Thomas Scarborough, III, who
currently resides and has resided at 3876
Applebutter Road, Perkasie, Bucks County,
Pennsylvania, since approximately April 1, 2001.
2. Defendant is Christy J. Scarborough, who
currently resides and has resided at 148 Virginia
Drive, Nazareth, Northampton County,
Pennsylvania, since November 23, 2004; however,
she resided in Bucks County for approximately ten
years prior.
Page 1 of 5
3. Plaintiff and/or Defendant have been bona fide
residents in the Commonwealth for at least six
months immediately previous to the filing of this
Divorce Complaint.
4. The Plaintiff and Defendant were married on
December 31, 2003, in Northampton County,
Pennsylvania.
5. There have been no prior actions of divorce or for
annulment.
6. The marriage is irretrievably broken.
7. Plaintiff has been advised that counseling is
available and that Plaintiff may have the right to
request that the court require the parties to
participate in counseling.
WHEREFORE, Plaintiff respectfully requests
that this Honorable Court enter a Decree od Divorce.
COUNT II
Request for Equitable Distribution of Marital
Property
8. The prior paragraphs are incorporated by
reference.

- 64-

9. Plaintiff and Defendant have acquired property,
both real and personal, during their marriage from
December 31, 2003 until November 23, 2004, the
date of separation.
10. Plaintiff and Defendant have acquired, prior to
their marriage or subsequent thereto, “non-marital
property” which has increased in value since the
date of the marriage and/or subsequent to its
acquisition during the marriage, which increase in
value is “marital property.”
11. Plaintiff and Defendant have been unable to
agree as to an equitable division of said property.
WHEREFORE, Plaintiff respectfully requests
that this Honorable Court to equitably divide all
marital property.
COUNT III
Request for Child Custody
12. The prior paragraphs are incorporated by
reference.
13. Plaintiff seeks Joint Legal and Joint Physical
Custody of Selah Jean Scarborough (DOB:
12/27/2004). The child was not born out of wedlock.
Page 2 of 5

- 65 -

Exhibit 2
PATRICIA L. BACHTLE
PROTHONOTARY
PATRICIA L. BACHTLE
COUNTY OF BUCKS
DOYLESTOWN, PA 18901
(215) 348-6191

DUPLICATE RECEIPT
#205 1 19904 P
D#2005 61942
FOR SCARBOROUGH
06/27/2005 15:32

PROTHONOTARY
COUNTY OF BUCKS
DOYLESTOWN, PA 18901
(215) 248-6191

DUPLICATE RECEIPT
#205 1 19903 P
D#2005 61942
FOR SCARBOROUGH
06/27/2005 15:31

42.00
CK# 0156
TOTAL RCVD
42.00 CK# 0156
293.00
TOTAL PAID
42.00 TOTAL RCVD
293.00
CHANGE
0.00 TOTAL PAID
293.00
CHANGE
THANK YOU- AEA
0.00
THANK YOU- AEA
PATRICIA L. BACHTLE
PROTHONOTARY
COUNTY OF BUCKS
DOYLESTOWN, PA 18901
(215) 348-6191

DUPLICATE RECEIPT
#205 1 19905 P
D#2005 61942
FOR SCARBOROUGH
06/27/2005 15:33
CK# 0156
TOTAL RCVD
TOTAL PAID
CHANGE
THANK YOU-AEA

-66-

47.00
47.00
47.00
0.00

Exhibit 8 page 1
IN THE COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, PENNSYLVANIA
CIVIL DIVISION-LAW
E. THOMAS SCARBOROUGH
Plaintiff

No. C-0048CV-2005-02186
CUSTODY

v.
CHRISTY J. SCARBOROUGH
Defendant
ORDER OF COURT

AND NOW, this 16th day of November, 2005,
following a conference before the Custody
Conference officer, upon agreement of the parties, it
is hereby ORDERED and DIRECTED, as follows:
1. E. Thomas Scarborough (“Father”) and
Christy J. Scarborough (“Mother”) shall have
shared legal custody of their minor child,
Selah Jean (age 8 % months), including the
legal right to make major decisions affecting
the best interests of the child, including but
not limited to medical, dental, religious,
educational and child care decisions. Each
parent shall be entitled to complete
information from any school, pediatrician,
general physician, dentist, specialist or
consultant, child care provider, extra­
curricular facility or program. Both parties

-67 -

shall be provided with copies of any reports
given by any school or any of the above
providers; if one parent receives such a report,
that parent shall send a copy of the report to
the other. Except as prevented by emergency,
the parties shall mutually agree on all major
medical care, including psychiatric and
psychological care for the child and neither
party shall hospitalize or seek other than
routine medical or dental treatment without
the other party. The parties shall seek and
make every good effort to determine mutually
all maters relating to the health, education
(including extra-curricular activities and
programs), child care and general welfare of
the child and the parties agree to cooperate
and shall cooperate with respect to the child
so as to advance to a maximum degree of the
child’s health, emotional and physical well
being and to give and afford the child affection
of both parents and sense of security. The
custodial parent shall assure the child’s
attendance at regularly scheduled extra­
curricular activities, birthday parties, and
such other similar events.
2. Mother shall have primary physical custody
of the child, subject to periods of partial
physical custody with Father as follows:

-68-

Exhibit 33
April 25, 2017
Judge Baratta,

On February 8, 2017 you denied my request
for accommodation from the Court, for a protected
disability under the Americans with Disabilities Act
42 U.S.C.A & 12132.
At that time you requested documentation
evidencing the diagnosis of ADD. With the
understanding that the record is voluminous, I have
attached hereto a copy of Dr. Cosden’s report from
the record.
At times, I have difficulty organizing my thoughts
when making oral arguments. Specifically, I
requested that the Court accommodate my protected
disability, by first reading what is put to writing,
then ask questions about my averments. You denied
my request stating, “No. That’s not how it works.
That’s not how it works.” (Ex. 15 at p. 7,
19-25,
N.T. Feb. 8, 2017).
Independent of my request, it would seem
beneficial to consider the evidence, to gain
understanding.
Sincerely,
E. Thomas Scarborough III

Cc: Richard Santee

- 69 -

Exhibit 34

CENTRAL BUCKS FAMILY PRACTICE, P.C.
BOARD CERTIFIED FAMILY PRACTICE

BALI WICK OFFICE CAMPUS
SUITE 41
252 WEST SWAMP ROAD
DOYLESTOWN, PA 18901
215-348-1706
COMMONWOODS OFFICE CAMPUS
SUITE FI
2370 YORK ROAD
JAMISON, PA 18929
215-343-5444

DATE: 7/27/18
Thomas SCARBOROUGH
3876 APPLEBUTTER RD
PERKASIE, PA, 18944
Thomas has a diagnosis of ADD F90.0
Sincerely,
/s/ Robert Lewcun, DO
ROBERT LEWCUN, DO

-70-

Exhibit 35
IN THE COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, PENNSYLVANIA
CIVIL DIVISION- LAW
E. THOMAS SCARBOROUGH, III,
Plaintiff,
NO. 205-2186
v.
CHRISTY SCARBOROUGH,
Defendant.
PENNSYLVANIA RULE OF APPELLATE
PROCEDURE 1295(a) STATEMENT
This is an appeal by a serial pro se filer.
A trial on the Appellant’s Contempt Petition
before the Court was held on January3, 2017, which
generated my January 5, 2017 order denying and
dismissing the Defendant’s Contempt Petition.
Our Order speaks for itself.
We did not request the Defendant to file a
Statement of Matters Complained of on Appeal,
because this appeal is not worthy of further
comment.
BY THE COURT:
Is/ Stephen G. Baratta
STEPHEN G. BARATTA,P. J.
Date: January 12, 2017

- 71 -

Exhibit 40
IN THE COURT OF COMMON PLEAS OF
NORTHAMPTON COUNTY, PENNSYLVANIA
CIVIL DIVISION- LAW
E. THOMAS SCARBOROUGH, III,
Plaintiff,
NO. 205-2186
v.
CHRISTY SCARBOROUGH,
Defendant.
ORDER OF COURT
AND NOW, THIS 21ST DAY OF November, 2016,
Defendant’s request for Reconsideration is DENIED
without a hearing.

BY THE COURT:
/s/ Stephen G. Baratta
STEPHEN G. BARATTA,P. J.

- 72 -

9a
Protected Disability Rules
42 U.S.C. §12202. State immunity
A State shall not be immune under the eleventh
amendment to the Constitution of the United States
from an action in [1] Federal or State court of
competent jurisdiction for a violation of this chapter.
In any action against a State for a violation of the
requirements of this chapter, remedies (including
remedies both at law and in equity) are available for
such a violation to the same extent as such remedies
are available for such a violation in an action against
any public or private entity other than a State.
(Pub. L. 101-336, title V, § 502, July 26, 1990, 104
Stat. 370.)
42 U.S.C. §12132. Discrimination
Subject to the provisions of this subchapter, no
qualified individual with a disability shall, by reason
of such disability, be excluded from participation in
or be denied the benefits of the services, programs,
or activities of a public entity, or be subjected to
discrimination by any such entity.
(Pub. L. 101-336, title II, § 202, July 26, 1990, 104
Stat. 337.)
28 CFR §35.160 Communication requirements
(a)(1) A public entity shall take appropriate steps
to ensure that communications with applicants,
participants, members of the public, and companions
with disabilities are as effective as communications
with others.

- 73 -

(2) For purposes of this section, “companion”
means a family member, friend, or associate of an
individual seeking access to a service, program, or
activity of a public entity, who, along with such
individual, is an appropriate person with whom the
public entity should communicate.
(b)(1) A public entity shall furnish appropriate
auxiliary aids and services where necessary to afford
individuals with disabilities, including applicants,
participants, companions, and members of the
public, an equal opportunity to participate in, and
enjoy the benefits of, a service, program, or activity
of a public entity.
(2) The type of auxiliary aid or service necessary to
ensure effective communication will vary in
accordance with the method of communication used
by the individual; the nature, length, and complexity
of the communication involved; and the context in
which the communication is taking place. In
determining what types of auxiliary aids and
services are necessary, a public entity shall give
primary consideration to the requests of individuals
with disabilities. In order to be effective, auxiliary
aids and services must be provided in accessible
formats, in a timely manner, and in such a way as to
protect the privacy and independence of the
individual with a disability.
(c)(1) A public entity shall not require an
individual with a disability to bring another
individual to interpret for him or her.
(2) A public entity shall not rely on an adult
accompanying an individual with a disability to
interpret or facilitate communication except -

- 74-

(i) In an emergency involving an imminent threat
to the safety or welfare of an individual or the public
where there is no interpreter available; or
(ii) Where the individual with a disability
specifically requests that the accompanying adult
interpret or facilitate communication, the
accompanying adult agrees to provide such
assistance, and reliance on that adult for such
assistance is appropriate under the circumstances.
(3) A public entity shall not rely on a minor child
to interpret or facilitate communication, except in an
emergency involving an imminent threat to the
safety or welfare of an individual or the public where
there is no interpreter available.
(d) Video remote interpreting (VRI) services. A
public entity that chooses to provide qualified
interpreters via VRI services shall ensure that it
provides (1) Real-time, full-motion video and audio over a
dedicated high-speed, wide-bandwidth video
connection or wireless connection that delivers highquality video images that do not produce lags,
choppy, blurry, or grainy images, or irregular pauses
in communication;
(2) A sharply delineated image that is large
enough to display the interpreter's face, arms,
hands, and fingers, and the participating
individual's face, arms, hands, and fingers,
regardless of his or her body position;
(3) A clear, audible transmission of voices; and
(4) Adequate training to users of the technology
and other involved individuals so that they may
quickly and efficiently set up and operate the VRI.
42 U.S.C. §2000d-7. Civil rights remedies

-75-

(a) General provision
(1) A State shall not be immune under the
Eleventh Amendment of the Constitution of the
United States from suit in Federal court for a
violation of section 504 of the Rehabilitation Act of
1973 [29 U.S.C. 794], title IX of the Education
Amendments of 1972 [20 U.S.C. 1681 et seq.], the
Age Discrimination Act of 1975 [42 U.S.C. 6101 et
seq.], title VI of the Civil Rights Act of 1964 [42
U.S.C. 2000d et seq.], or the provisions of any other
Federal statute prohibiting discrimination by
recipients of Federal financial assistance.
(2) In a suit against a State for a violation of a
statute referred to in paragraph (1), remedies
(including remedies both at law and in equity) are
available for such a violation to the same extent as
such remedies are available for such a violation in
the suit against any public or private entity other
than a State.
(b) Effective date
The provisions of subsection (a) of this section
shall take effect with respect to violations that occur
in whole or in part after October 21, 1986.
(Pub. L. 99-506, title X, Sec. 1003, Oct. 21, 1986, 100
Stat. 1845.)
§504 Rehabilitation Act of 1973, codified 29
U.S.C. §794 Nondiscrimination under Federal
grants
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability in
the United States, as defined in section 705(20) of
this title, shall, solely by reason of her or his
disability, be excluded from the participation in, be
denied the benefits of, or be subjected to

- 76 -

discrimination under any program or activity
receiving Federal financial assistance or under any
program or activity conducted by any Executive
agency or by the United States Postal Service. The
head of each such agency shall promulgate such
regulations as may be necessary to carry out the
amendments to this section made by the
Rehabilitation, Comprehensive Services, and
Developmental Disabilities Act of 1978. Copies of
any proposed regulation shall be submitted to
appropriate authorizing committees of the Congress,
and such regulation may take effect no earlier than
the thirtieth day after the date on which such
regulation is so submitted to such committees.
(b) “Program or activity” defined For the
purposes of this section, the term “program or
activity” means all of the operations of—
(1)(A) a department, agency, special purpose
district, or other instrumentality of a State or of a
local government; or
(B) the entity of such State or local government
that distributes such assistance and each such
department or agency (and each other State or local
government entity) to which the assistance is
extended, in the case of assistance to a State or local
government;
(2)(A) a college, university, or other
postsecondary institution, or a public system of
higher education; or
(B) a local educational agency (as defined in
section 7801 of title 20), system of career and
technical education, or other school system;
(3)(A) an entire corporation, partnership, or
other private organization, or an entire sole
proprietorship—

- 77 -

(i) if assistance is extended to such corporation,
partnership, private organization, or sole
proprietorship as a whole; or
(ii) which is principally engaged in the business
of providing education, health care, housing, social
services, or parks and recreation; or
(B) the entire plant or other comparable,
geographically separate facility to which Federal
financial assistance is extended, in the case of any
other corporation, partnership, private organization,
or sole proprietorship; or
(4) any other entity which is established by two
or more of the entities described in paragraph (1),
(2), or (3); any part of which is extended Federal
financial assistance.
(c) Significant structural alterations by small
providers. Small providers are not required by
subsection (a) to make significant structural
alterations to their existing facilities for the purpose
of assuring program accessibility, if alternative
means of providing the services are available. The
terms used in this subsection shall be construed with
reference to the regulations existing on March 22,
1988.
(d) Standards used in determining violation of
section The standards used to determine whether
this section has been violated in a complaint alleging
employment discrimination under this section shall
be the standards applied under title I of the
Americans with Disabilities Act of 1990 (42 U.S.C.
12111 et seq.) and the provisions of sections 501
through 504, and 510, [1] of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12201—12204 and
12210), as such sections relate to employment.

-78-

10a
Constitutional Provisions abridged
Amendment 1
or the right of the people ...to petition the
Government for a redress of grievances.
Amendment 5
No person shall be ... deprived of life, liberty, or
property, without due process of law.
Amendment 14
1. All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
5. The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

- 79-

11a
Federal Rules of Civil Procedure
F.R.C.P. 8(b)(6) Effect of Failing to Deny.
An allegation—other than one relating to the
amount of damages—is admitted if a responsive
pleading is required and the allegation is not denied.
If a responsive pleading is not required, an
allegation is considered denied or avoided.
F.R.C.P. 9(b) Fraud or Mistake.
In alleging fraud or mistake, a party must state with
particularity the circumstances constituting fraud or
mistake. Malice, intent, knowledge, and other
conditions of a person’s mind may be alleged
generally.
F.R.C.P. 56(e) Fail to Properly Address a Fact.
If a party fails to properly support an assertion of
fact or fails to nronerlv address another party’s
assertion of fact as required bv Rule 56(c). the court
may: (1) give an opportunity to properly support or
address the fact; (2) consider the fact undisputed for
purposes of the motion; (3) grant summary judgment
if the motion and supporting materials—including
the facts considered undisputed—show that the
movant is entitled to it; or (4) issue any other
appropriate order.
F.R.C.P. 60(d)(3) Relief From a Judgement.
(3) set aside a judgment for fraud on the court.

-80-

12a
Pertinent State Statutes
18 Pa. C.S.A. §302(b)(3) Reckless Disregard
(b)(3) A person acts recklessly with respect to a
material element of an offense when he consciously
disregards a substantial and unjustifiable risk that
the material element exists or will result from his
conduct. The risk must be of such a nature and
degree that, considering the nature and intent of the
actor's conduct and the circumstances known to him,
its disregard involves a gross deviation from the
standard of conduct that a reasonable person would
observe in the actor's situation.
23 Pa. C.S.A. §5323(a)(c)(d) Award of Custody.
(a) Types of award.-After considering the
factors set forth in section 5328 (relating to factors to
consider when awarding custody), the court may
award any of the following types of custody if it is in
the best interest of the child.
(c) Notice. --Any custody order shall include
notice of a party's obligations under section 5337
(relating to relocation).
(d) Reasons for award. --The court shall
delineate the reasons for its decision on the record in
open court or in a written opinion or order.

-81 -

13a
Pertinent Judicial Procedure
28 U.S.C. §1331. Federal Question
The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws,
or treaties of the United States.
28 U.S.C. §1343 Civil Rights
(a) The district courts shall have original
jurisdiction of any civil action authorized by law to
be commenced by any person:
(1) To recover damages for injury to his person or
property, or because of the deprivation of any right
or privilege of a citizen of the United States, by any
act done in furtherance of any conspiracy mentioned
in section 1985 of Title 42;
(2) To recover damages from any person who
fails to prevent or to aid in preventing any wrongs
mentioned in section 1985 of Title 42 which he had
knowledge were about to occur and power to prevent;
(3) To redress the deprivation, under color of any
State law, statute, ordinance, regulation, custom or
usage, of any right, privilege or immunity secured by
the Constitution of the United States or by any Act
of Congress providing for equal rights of citizens or
of all persons within the jurisdiction of the United
States;
(4) To recover damages or to secure equitable or
other relief under any Act of Congress providing for
the protection of civil rights, including the right to
vote.
(b) For purposes of this section-

-82-

(1) the District of Columbia shall be considered
to be a State; and
(2) any Act of Congress applicable exclusively to
the District of Columbia shall be considered to be a
statute of the District of Columbia.
28 U.S.C. §1361 Compel Performance of Duty
The district courts shall have original
jurisdiction of any action in the nature of mandamus
to compel an officer or employee of the United States
or any agency thereof to perform a duty owed to the
plaintiff.
28 U.S.C. §1367 Supplemental Jurisdiction
(a) Except as provided in subsections (b) and (c)
or as expressly provided otherwise by Federal
statute, in any civil action of which the district
courts have original jurisdiction, the district courts
shall have supplemental jurisdiction over all other
claims that are so related to claims in the action
within such original jurisdiction that they form part
of the same case or controversy under Article III of
the United States Constitution. Such supplemental
jurisdiction shall include claims that involve the
joinder or intervention of additional parties.
(b) In any civil action of which the district courts
have original jurisdiction founded solely on section
1332 of this title, the district courts shall not have
supplemental jurisdiction under subsection (a) over
claims by plaintiffs against persons made parties
under Rule 14, 19, 20, or 24 of the Federal Rules of
Civil Procedure, or over claims by persons proposed
to be joined as plaintiffs under Rule 19 of such rules,
or seeking to intervene as plaintiffs under Rule 24 of
such rules, when exercising supplemental

-83-

jurisdiction over such claims would be inconsistent
with the jurisdictional requirements of section 1332.
(c) The district courts may decline to exercise
supplemental jurisdiction over a claim under
subsection (a) if(1) the claim raises a novel or complex issue of
State law,
(2) the claim substantially predominates over the
claim or claims over which the district court has
original jurisdiction,
(3) the district court has dismissed all claims
over which it has original jurisdiction, or
(4) in exceptional circumstances, there are other
compelling reasons for declining jurisdiction.
(d) The period of limitations for any claim
asserted under subsection (a), and for any other
claim in the same action that is voluntarily
dismissed at the same time as or after the dismissal
of the claim under subsection (a), shall be tolled
while the claim is pending and for a period of 30
days after it is dismissed unless State law provides
for a longer tolling period.
(e) As used in this section, the term "State"
includes the District of Columbia, the
Commonwealth of Puerto Rico, and any territory or
possession of the United States.
28 U.S.C. §2072 Power to Prescribe
(a) The Supreme Court shall have the power to
prescribe general rules of practice and procedure and
rules of evidence for cases in the United States
district courts (including proceedings before
magistrate judges thereof) and courts of appeals.
(b) Such rules shall not abridge, enlarge or
modify any substantive right. All laws in conflict

-84-

with such rules shall be of no further force or effect
after such rules have taken effect.
(c) Such rules may define when a ruling of a
district court is final for the purposes of appeal
under section 1291 of this title.
28 U.S.C. §2106 Determination
The Supreme Court or any other court of
appellate jurisdiction may affirm, modify, vacate, set
aside or reverse any judgment, decree, or order of a
court lawfully brought before it for review, and may
remand the cause and direct the entry of such
appropriate judgment, decree, or order, or require
such further proceedings to be had as may be just
under the circumstances.

- 85 -

■14a

Chapter 21 Civil Rights
42 U.S.C. §1981 Equal Rights
(a) Statement of equal rights
All persons within the jurisdiction of the United
States shall have the same right in every State and
Territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal
benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens,
and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every
kind, and to no other.
(b) "Make and enforce contracts" defined
For purposes of this section, the term "make and
enforce contracts" includes the making, performance,
modification, and termination of contracts, and the
enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship.
(c) Protection against impairment
The rights protected by this section are protected
against impairment by nongovernmental
discrimination and impairment under color of State
law.
42 U.S.C. §1983 Deprivation Civil Rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,

-86-

shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a
judicial officer for an act or omission taken in such
officer's judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia
shall be considered to be a statute of the District of
Columbia.
42 U.S.C. §1985(3) Deprivation Conspiracy
If two or more persons in any State or Territory
conspire or go in disguise on the highway or on the
premises of another, for the purpose of depriving,
either directly or indirectly, any person or class of
persons of the equal protection of the laws, or of
equal privileges and immunities under the laws; or
for the purpose of preventing or hindering the
constituted authorities of any State or Territory from
giving or securing to all persons within such State or
Territory the equal protection of the laws; or if two
or more persons conspire to prevent by force,
intimidation, or threat, any citizen who is lawfully
entitled to vote, from giving his support or advocacy
in a legal manner, toward or in favor of the election
of any lawfully qualified person as an elector for
President or Vice President, or as a Member of
Congress of the United States; or to injure any
citizen in person or property on account of such
support or advocacy; in any case of conspiracy set
forth in this section, if one or more persons engaged
therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby

-87 -

another is injured in his person or property, or
deprived of having and exercising any right or
privilege of a citizen of the United States, the party
so injured or deprived may have an action for the
recovery of damages occasioned by such injury or
deprivation, against any one or more of the
conspirators.
42 U.S.C. §1986 Neglect to Prevent
Every person who, having knowledge that any of
the wrongs conspired to be done, and mentioned in
section 1985 of this title, are about to be committed,
and having power to prevent or aid in preventing the
commission of the same, neglects or refuses so to do,
if such wrongful act be committed, shall be liable to
the party injured, or his legal representatives, for all
damages caused by such wrongful act, which such
person by reasonable diligence could have prevented;
and such damages may be recovered in an action on
the case; and any number of persons guilty of such
wrongful neglect or refusal may be joined as
defendants in the action; and if the death of any
party be caused by any such wrongful act and
neglect, the legal representatives of the deceased
shall have such action therefor, and may recover not
exceeding $5,000 damages therein, for the benefit of
the widow of the deceased, if there be one, and if
there be no widow, then for the benefit of the next of
kin of the deceased. But no action under the
provisions of this section shall be sustained which is
not commenced within one year after the cause of
action has accrued.
42 U.S.C. §1988 Vindication Civil Rights
(a) Applicability of statutory and common law

-88-

The jurisdiction in civil and criminal matters
conferred on the district courts by the provisions of
titles 13, 24, and 70 of the Revised Statutes for the
protection of all persons in the United States in their
civil rights, and for their vindication, shall be
exercised and enforced in conformity with the laws of
the United States, so far as such laws are suitable to
carry the same into effect; but in all cases where
they are not adapted to the object, or are deficient in
the provisions necessary to furnish suitable remedies
and punish offenses against law, the common law, as
modified and changed by the constitution and
statutes of the State wherein the court having
jurisdiction of such civil or criminal cause is held, so
far as the same is not inconsistent with the
Constitution and laws of the United States, shall be
extended to and govern the said courts in the trial
and disposition of the cause, and, if it is of a criminal
nature, in the infliction of punishment on the party
found guilty.
(b) Attorney's fees
In any action or proceeding to enforce a provision of
sections 1981, 1981a, 1982, 1983, 1985, and 1986 of
this title, title IX of Public Law 92-318 [20 U.S.C.
1681 et seq.], the Religious Freedom Restoration Act
of 1993 [42 U.S.C. 2000bb et seq.], the Religious
Land Use and Institutionalized Persons Act of 2000
[42 U.S.C. 2000cc et seq.], title VI of the Civil Rights
Act of 1964 [42 U.S.C. 2000d et seq.], or section
12361 of title 34, the court, in its discretion, may
allow the prevailing party, other than the United
States, a reasonable attorney's fee as part of the
costs, except that in any action brought against a
judicial officer for an act or omission taken in such
officer's judicial capacity such officer shall not be

-89-

held liable for any costs, including attorney's fees,
unless such action was clearly in excess of such
officer's jurisdiction.
(c) Expert fees
In awarding an attorney's fee under subsection (b) in
any action or proceeding to enforce a provision of
section 1981 or 1981a of this title, the court, in its
discretion, may include expert fees as part of the
attorney's fee.

-90-

15a
Criminal procedure
18 U.S.C. §241 Conspiracy Against Rights
If two or more persons conspire to injure,
oppress, threaten, or intimidate any person in any
State, Territory, Commonwealth, Possession, or
District in the free exercise or enjoyment of any right
or privilege secured to him by the Constitution or
laws of the United States, or because of his having so
exercised the same; or If two or more persons go in
disguise on the highway, or on the premises of
another, with intent to prevent or hinder his free
exercise or enjoyment of any right or privilege so
secured— They shall be fined under this title or
imprisoned not more than ten years, or both; and if
death results from the acts committed in violation of
this section or if such acts include kidnapping or an
attempt to kidnap, aggravated sexual abuse or an
attempt to commit aggravated sexual abuse, or an
attempt to kill, they shall be fined under this title or
imprisoned for any term of years or for life, or both,
or may be sentenced to death.
18 U.S.C. §242 Deprivation Under Color of Law
Whoever, under color of any law, statute,
ordinance, regulation, or custom, willfully subjects
any person in any State, Territory, Commonwealth,
Possession, or District to the deprivation of any
rights, privileges, or immunities secured or protected
by the Constitution or laws of the United States, or
to different punishments, pains, or penalties, on
account of such person being an alien, or by reason of
his color, or race, than are prescribed for the

-91-

punishment of citizens, shall be fined under this title
or imprisoned not more than one year, or both; and if
bodily injury results from the acts committed in
violation of this section or if such acts include the
use, attempted use, or threatened use of a dangerous
weapon, explosives, or fire, shall be fined under this
title or imprisoned not more than ten years, or both;
and if death results from the acts committed in
violation of this section or if such acts include
kidnapping or an attempt to kidnap, aggravated
sexual abuse, or an attempt to commit aggravated
sexual abuse, or an attempt to kill, shall be fined
under this title, or imprisoned for any term of years
or for life, or both, or may be sentenced to death.
18 U.S.C. §1001(a) Statements or Entries
(a) Except as otherwise provided in this section,
whoever, in any matter within the jurisdiction of the
executive, legislative, or judicial branch of the
Government of the United States, knowingly and
willfully—
(1) falsifies, conceals, or covers up by any trick,
scheme, or device a material fact;
(2) makes any materially false, fictitious, or
fraudulent statement or representation; or
(3) makes or uses any false writing or document
knowing the same to contain any materially false,
fictitious, or fraudulent statement or entry; shall be
fined under this title, imprisoned not more than 5
years or, if the offense involves international or
domestic terrorism (as defined in section 2331),
imprisoned not more than 8 years, or both. If the
matter relates to an offense under chapter 109A,
109B, 110, or 117, or section 1591, then the term of

-92-

imprisonment imposed under this section shall be
not more than 8 years.
18 U.S.C §1038(b) False Information- Hoaxes
(b) Civil Action.—Whoever engages in any
conduct with intent to convey false or misleading
information under circumstances where such
information may reasonably be believed and where
such information indicates that an activity has
taken, is taking, or will take place that would
constitute a violation of chapter 2, 10, 11B, 39, 40,
44, 111, or 113B of this title, section 236 of the
Atomic Energy Act of 1954 (42 U.S.C. 2284), or
section 46502, the second sentence of section 46504,
section 46505 (b)(3) or (c), section 46506 if homicide
or attempted homicide is involved, or section
60123(b) of title 49 is liable in a civil action to any
party incurring expenses incident to any emergency
or investigative response to that conduct, for those
expenses.

-93-

